                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



March 28, 2014

David L. Owens, WT 9C-K
Scott D. Self, MR 6D-C

REQUEST FOR FINAL ACTION – AUDIT 2011-14477-01 – FOLLOW-UP AUDIT OF
TVA'S FINANCIAL TRADING PROGRAM



The Office of the Inspector General contracted with Mercatus Energy Advisors to
(1) provide a third-party review of the final actions taken by Tennessee Valley Authority
(TVA) management with regard to the recommendations from Audit 2011-14477, Review of
TVA’s Financial Trading Program (FTP), and (2) determine if TVA’s Financial Gas Hedging
program1 is designed and functioning in a manner to achieve program objectives in the
most efficient and effective manner.

Mercatus is responsible for the attached report dated March 26, 2014, and the conclusions
expressed in the report. In summary, Mercatus made nine specific recommendations in its
report to improve the FTP:

1. Determine Tolerance and Proper Size of FTP Risk – TVA should undertake a formal
   process to sample the risk tolerance of ratepayers and resize the FTP to match no less
   than one quantified measure of risk tolerance. The size of the FTP should be
   determined by the amount of hedging required to reduce risk within the risk tolerance
   parameter(s) as defined by the risk tolerance determination process.

2. Address and Communicate Volumetric Risk – TVA’s volumetric risk needs to be
   properly analyzed and well communicated between the various stakeholders who have
   a vested interest in this aspect of the FTP. This effort should include the development
   of a formal process for analyzing TVA’s volumetric risk, on a regular and consistent
   basis, and should be a joint effort between the front office and the generation planning
   group. Furthermore, the results of this undertaking need to be well communicated to all
   necessary parties on a regular basis.

3. Redesign Hedging Strategies – TVA should redesign the hedging strategies it
   employs to better match the characteristics of the exposures which are being hedged
   via the FTP.



1
    Although the FTP has recently been renamed the “Financial Hedging Program,” Mercatus’ report refers to
    the program by its original name—FTP.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
David L. Owens
Scott D. Self
Page 2
March 28, 2014



4. Improve and Consolidate Performance Reports – All interested parties should
   cooperate to produce a set of performance metrics that can be used by all functions
   related to trading and risk management. In addition, TVA should develop a historical
   volatility reduction metric specific to natural gas hedging given that natural gas is the
   largest part of the FTP (as indicated by the FTP being granted the majority of TVA’s
   Value at Risk [VaR] capacity).

5. Cease Using VaR as a Primary Risk Metric – TVA should cease the use of VaR as a
   primary risk metric and replace it with an “at risk” type of metric(s) that includes not only
   the financial natural gas hedges but also the physical exposures being hedged via the
   FTP as this type of approach is more suitable for a power generator such as TVA.
   These new metric(s) could also be used in the risk tolerance determination and
   management processes.

6. Conduct Stress Testing – Stress testing needs to become a routine and regular part
   of Middle Office risk analysis and reporting. The results of said stress testing should be
   utilized with respect to decision making as well as monitoring TVA’s potential risk
   exposure.

7. Adhere to Governance Documents – TVA needs to take action to ensure that it is
   performing all that is required of it by the FTP’s governance documents, or if the
   language in the governance documents is inaccurate, governance documents should
   be revised to reflect actual practices.

8. Conduct Proper Cost/Benefit Analysis – In order to determine the true costs and
   benefits of the FTP, TVA should calculate the complete costs and benefits of the FTP
   since inception. The total should include all costs that would be eliminated if the FTP
   did not exist. Also, for forward looking risk reduction metrics, such as fuel cost
   certainty, TVA should compare the all-in hedged cost of fuel versus the cost of fuel
   without hedging (market price).

9. Properly Analyze and Manage All of TVA’s Energy Commodity Exposure - The
   FTP should be analyzed as part of TVA’s total energy commodity portfolio such that all
   energy commodity (i.e., coal and fuel oil) risks, both physical and financial, are being
   properly analyzed and managed.

Your written comments, which addressed your management decision and actions planned
or taken, indicated that TVA management generally agreed with these recommendations
and have been included as Attachment A to the report. Please notify us when final action
is complete. In accordance with the Inspector General Act of 1978, as amended, the
Office of the Inspector General is required to report to Congress semiannually regarding
audits that remain unresolved after 6 months from the date of report issuance.

Mercatus’ response to your comments is also included as Attachment B to the report. In
its response, Mercatus (1) indicated TVA’s planned actions should be acknowledged as
improvements to the FTP and (2) provided additional clarification on a few issues.


                              TVA RESTRICTED INFORMATION
David L. Owens
Scott D. Self
Page 3
March 28, 2014



Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact David S. Shields, Audit Manager, at (865) 633-
7364 or Rick C. Underwood, Director, Corporate Governance and Finance Audits, at
(423) 785-4824. We appreciate the courtesy and cooperation received from your staff
during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

RCU:BSC
Attachment
cc (Attachment):
     Jerry E. Brown, MR 2B-C
     Michael R. Corley, Mercatus Energy Advisors
     Mark A. Creech, MR 2D-C
     John M. Hoskins, WT 4C-K
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Cassidy L. Larson, OCP 6B-NST
     Justin C. Maierhofer, WT 7B-K
     Gary P. Mazo, MR 2D-C
     Richard W. Moore, ET 4C-K
     R. Windle Morgan, WT 9B-K
     Charles G. Pardee, WT 7B-K
     John M. Thomas III, MR 6D-C
     OIG File No. 2011-14477-01




                            TVA RESTRICTED INFORMATION
Review of Tennessee Valley Authority’s Financial Trading Program
                        March 26, 2014
This report (“Report”) has been prepared by Mercatus Energy Advisors, LLC (“Mercatus”) for the
Tennessee Valley Authority Office of the Inspector General (OIG) in accordance with the Contract for
Professional Services between the Tennessee Valley Authority and Mercatus dated May 6, 2013
(“Contract“) and on the basis of the scope and limitations set out below.

The Report has been prepared solely for the purposes of assisting the OIG in reviewing Tennessee Valley
Authority’s Financial Trading Program as set out in the Contract. It should not be used for any other
purpose or in any other context, and Mercatus accepts no responsibility for its use in either regard.

The Report is provided exclusively for the OIG’s use under the terms of the Contract. No party other
than the OIG is entitled to rely on the Report for any purpose whatsoever and Mercatus accepts no
responsibility or liability to any party other than the OIG in respect of the Report and/or any of its
contents.

As set out in the Contract, the scope of our work has been limited by the time, information and
explanations made available to us. The information contained in the Report has been obtained from the
OIG and third party sources that are clearly referenced in the appropriate sections of the Report.
Mercatus has neither sought to verify or audit this information. Furthermore, changes in circumstances
after February 28, 2014 could affect the findings of the Report.

Accordingly, no representation or warranty, express or implied is given and no responsibility or liability
is or will be accepted by or on behalf of Mercatus or by any of its principals, employees or agents or any
other person as to the accuracy, completeness or correctness of the information contained in this
document or any oral information made available, and any such liability is expressly disclaimed.

All copyright and other proprietary rights in the Report remain the property of Mercatus and any rights
not expressly granted in the terms or in the Contract are reserved. The Report and its contents do not
constitute financial or other professional advice, and specific advice should be sought about your
specific circumstances. In particular, the Report does not constitute a recommendation by Mercatus
Energy Advisors to buy or sell any commodities, derivatives, futures, options, securities, swaps or other
financial instruments or to provide any investment advice or service. To the fullest extent possible,
Mercatus disclaims any liability arising out of the use (or non-use) of the Report and its contents,
including any action or decision taken as a result of such use (or non-use).

This Report, including this notice, represents the entire document and may not be modified, or
reproduced other than in its entirety including this notice.




Mercatus Energy Advisors                             1                            Proprietary & Confidential
        1.0 Introduction


        Mercatus Energy Advisors, LLC (“Mercatus”) is a consulting firm specializing in energy
        trading and risk management, and was engaged by the Tennessee Valley Authority
        (“TVA”) Office of the Inspector General (“OIG”) to conduct a review of TVA’s Financial
        Trading Program (“FTP”) as a follow-up to the OIG’s audit of the FTP (Review of TVA's
        Financial Trading Program - 2011-14477, September 28, 2012). To carry out this task,
        Mercatus assembled a team with extensive experience in energy consulting for many
        commercial power and natural gas utilities, and power and natural gas producers and
        marketers. Brief biographical summaries of these individuals are provided in Appendix
        D.
        Please note that although the FTP has recently been renamed the “Financial Hedging
        Program,” because this is a broad review of fuel hedging activities at TVA encompassing
        the history of the program, this report will refer to the program by its original name of
        the FTP.


        1.1 Project Background


        In September 2003 the TVA’s Board of Directors approved a Financial Trading Pilot
        Program to hedge or otherwise limit the financial risks associated with the price of
        commodities included in TVA’s Fuel Cost Adjustment (FCA). At that time, the maximum
        Value at Risk (VaR) for TVA’s portfolio was not to exceed $5 million on an annual basis
        without the approval of the TVA Board. In May 2005, the TVA Board approved the
        request to expand and fully implement the FTP. At present, the FTP has an aggregate
        transaction limit of $130 million (based on a “one-day Value-at-Risk metric”) of which
        $90 million is allocated to natural gas hedging. TVA’s management has approved a
        hedging program that requires a minimum of 50 percent to a maximum of 75 percent of
        the forecasted natural gas volume for the fiscal year be hedged.




Mercatus Energy Advisors                        2                          Proprietary & Confidential
        1.2 Project Scope of Work


        This document has been organized generally along the lines of a subject outline included
        in the scope of work for this review. Minor changes to that outline have been made to
        enhance the flow of ideas and information.
        This review is based on the analysis of approximately 150 documents which were
        provided by the OIG and TVA’s front, middle and back office, and cover a variety of
        subjects which are relevant to determining if TVA’s FTP is designed and functioning in a
        manner to achieve the program’s objectives in the most efficient and effective manner,
        many of which will be referenced throughout this document. In addition, this review
        included the analysis of TVA’s brokerage and counterparty monthly statements from
        January 2010 through May 2013. Furthermore, this review included interviews with the
        following individuals:

               Jerry Brown – Senior Program Manager, Financial Hedging
               Bradley Decker – Manager, Analytics & Portfolio Management
               Eric Kuenzli - Director, Gas Supply & Origination
               Cassidy Larson – Director, Structuring & Portfolio Management
               Gary Mazo – Director, Portfolio Risk Management
               David Owens – Vice President, Coal & Gas Services
               John Porter – Senior Trader
               Mary Nell Pruitt – Senior Financial Consultant, Corporate Finance
               Van Wardlaw – Executive Vice President, Customer Relations
        This review is based solely on the information made available to us through February 28,
        2014.


        2.0 Recommendations


        1) Determine Tolerance and Proper Size of FTP Risk
              a. In order to determine the appropriate risk tolerance for the FTP, TVA should
                 undertake a formal process to sample the risk tolerance of ratepayers. If this is
                 deemed unfeasible, TVA should utilize internal resources to quantify, as best as
                 possible, the risk tolerance of ratepayers.
              b. Once TVA has determined the risk tolerance of ratepayers, it should re-size the FTP
                 to match no less than one quantified measure of risk tolerance. The size of the FTP
                 (amount of hedge coverage and the time horizon for hedging) should be determined
                 by the amount of hedging required to reduce risk within the risk tolerance
                 parameter(s) as defined by the risk tolerance determination process.



Mercatus Energy Advisors                         3                           Proprietary & Confidential
        2) Address and Communicate Volumetric Risk – TVA’s volumetric risk (the varying volume due
           to switching between coal and natural gas) needs to be properly analyzed and well
           communicated between the various stakeholders who have a vested interest in this aspect
           of the FTP. This is crucial given the significance of TVA’s volumetric risk. This effort should
           include the development of a formal process for analyzing TVA’s volumetric risk, on a
           regular and consistent basis, and should be a joint effort between the front office and the
           generation planning group. Furthermore, the results of this undertaking need to be well
           communicated to all necessary parties on a regular basis.

        3) Redesign Hedging Strategies – TVA should redesign the hedging strategies it employs to
           better match the characteristics of the exposures which are being hedged via the FTP. The
           natural optionality of TVA’s exposure to natural gas should be taken into account, as well as
           advantage of, during the strategy redesign process. The quantities to be hedged should be
           divided between baseload and variable quantities. The baseload quantities can be hedged
           fixed-price, fixed-quantity instruments such as futures and swaps would be optimal for
           hedging. The variable quantities should be hedged with options and perhaps even a variety
           of option strategies. In addition, TVA could develop a hedge optimization model which
           would determine, quantitatively, an optimal mix of fixed price instruments (i.e. futures) as
           well as options, to be utilized in order to meet quantified risk reduction targets.

        4) Improve and Consolidate Performance Reports – As previously addressed, the hedge
           effectiveness of the FTP is not being reported currently i.e. volatility reduction as measured
           by the FRV (fuel rate volatility) metric is being reported as being effective when this is not
           the case. Little to no reduction in volatility cannot be considered effective given the
           exposures TVA is exposed to via the FTP (e.g. operational risk, credit risk, liquidity risk) and
           the costs expended to achieve these results. Furthermore, TVA has developed multiple
           volatility reduction performance metrics yet none were, to our knowledge, provided to the
           OIG during their recent audit of the FTP. In addition, the performance metrics produced by
           the Front Office in response to the OIG’s recommendation differ from those produced by
           other functions within TVA and presented to the PROC. All interested parties should
           cooperate to produce a set of performance metrics that can be used by all functions related
           to trading and risk management. Lastly, TVA should develop a historical volatility reduction
           metric specific to natural gas hedging given that natural gas is the largest part of the FTP (as
           indicated by the FTP being granted the majority of TVA’s Value at Risk capacity.

        5) Cease Using VaR as a Primary Risk Metric - TVA should cease the use of Value at Risk as a
           primary risk metric and replace it with an “at risk” type of metric(s) that includes not only
           the financial natural gas hedges but also the physical exposures being hedged via the FTP as
           this type of approach is more suitable for a power generator such as TVA. These new
           metric(s) could also be used in the risk tolerance determination and management processes.

        6) Conduct Stress Testing –Stress testing needs to become a routine and regular part of
           Middle Office risk analysis and reporting. The results of said stress testing should be utilized
           with respect to decision making as well as monitoring TVA’s potential risk exposure.


Mercatus Energy Advisors                             4                             Proprietary & Confidential
        7) Adhere to Governance Documents – As previously mentioned, TVA needs to take action to
           ensure that it is performing all that is required of it by the FTP’s governance documents
           (e.g., stress tests, Cash-Flow-at-Risk), etc., or if the language in the governance documents
           is inaccurate, governance documents should be revised to reflect actual practices.

        8) Conduct Proper Cost/Benefit Analysis – In order to determine the true costs and benefits of
           the FTP, TVA should calculate the complete costs and benefits of the FTP since inception. As
           previously noted, the total should include all costs that would be eliminated if the FTP did
           not exist. Also, for forward looking risk reduction metrics, such as fuel cost certainty, TVA
           should compare the all-in hedged cost of fuel versus the cost of fuel without hedging
           (market price).

        9) Properly Analyze and Manage All of TVA’s Energy Commodity Exposure - The FTP should
           not only be analyzed in isolation but also as part of TVA’s total energy commodity portfolio
           such that all energy commodity (i.e. coal and fuel oil) risk, both physical and financial, are
           being properly analyzed and managed.


        2.1 Executive Summary


        As a result of the growth of TVA’s FTP, the OIG scheduled an audit as part of their FY
        2012 audit plan. As a result of their audit, on September 28, 2012, the OIG published a
        Review of TVA's Financial Trading Program - 2011-14477. The objectives of the OIG’s
        audit were to evaluate the following items:

               Management oversight and the design of controls in place to mitigate
                operational risk exposure
               The program objectives and related performance measures
               Whether TVA is meeting defined performance objectives
               How the FTP impacts TVA’s overall risk tolerance

        The OIG’s audit found that the overall design of TVA’s FTP control structure was
        appropriate while identifying several areas where management oversight should be
        improved to validate the usefulness and effectiveness of the program as well as to
        ensure TVA’s stakeholders’ understanding of the program including the following:

               TVA has not conducted a comprehensive cost-benefit analysis to determine
                whether the benefits derived from the FTP are greater than the inherent risks of
                the program
               TVA does not currently measure the performance of the FTP against defined
                program objectives
               TVA’s communications with its customers did not sufficiently convey the FTP’s
                impact on rates

Mercatus Energy Advisors                            5                             Proprietary & Confidential
        Subsequently, the OIG determined that in order to supplement its audit and ongoing
        discussions with TVA regarding the usefulness and effectiveness of the FTP, it should
        engage an independent, third party with relevant experience and expertise in energy
        trading and risk management to conduct and document a review. This intent of this
        review, in cooperation with the OIG, is to determine if TVA’s FTP is designed and
        functioning in a manner to achieve the program’s objectives in the most efficient and
        effective manner. This document presents the findings of this review as well as
        additional recommendations which can strengthen the FTP.
    In general, we concur with the OIG’s findings that the overall design of TVA’s FTP control
    structure is appropriate and that there are several areas for improvement with respect to
    validating the usefulness and effectiveness of the program as well as to ensure TVA’s
    stakeholders’ understanding of the program. However, we have identified several,
    additional issues which require TVA’s and OIG’s attention and are outlined below.

    1) TVA did not follow a process or undertake a specific effort to determine its risk
       tolerance associated with the FTP. To determine the size of the FTP, which according to
       best practices should be a function of a quantified risk tolerance, TVA relied heavily on
       information informally gathered directly from peers and on industry benchmark data
       provided by consultants as well as TVA executives who previously worked for other fuel
       hedging entities.
    2) TVA’s current volatility reduction metrics are incomplete measures of performance as
       they do not measure the cost of achieving reduced volatility.
    3) As noted in the OIG’s audit, TVA has yet to conduct a thorough cost/benefit analysis of
       the FTP. Such analysis should include no less than the following items:
           a. TVA’s effective (hedged) cost of natural gas vs. a market (unhedged) cost
           b. Overhead and Personnel
           c. Risk Information Systems
           d. Cost of Capital
           e. Transaction Costs
           f. Feeds paid to consultants for services related to the FTP
           g. Losses due to credit defaults
    4) While the documents which govern the FTP call for TVA to conduct various forms of
       stress testing, interview responses indicated that routine stress testing is rarely
       performed as outlined in the documents. However, in a response to the initial findings
       of this review, TVA indicated that the language in its governance documents regarding
       the requirements and conditions for the performance of stress tests was unclear, and
       that the language has been revised to reflect current practices.
    5) One of the FTP’s governance documents lists “CFaR” (Cash Flow at Risk) as an example
       of TVA Middle Office risk analytics yet the Middle Office is not calculating this metric. If

Mercatus Energy Advisors                         6                           Proprietary & Confidential
        the Middle Office is not performing CFaR calculations, governance documents should be
        changed to reflect this; however, CFaR would be a useful metric for TVA that could be
        used to define its tolerance to liquidity risk.
    6) TVA’s forecasting models show that the economic dispatch displacement of coal versus
        natural gas is a substantial driver of the FTP’s natural gas load forecast and resulting
        hedge targets, but to date, although TVA has conducted a considerable amount of
        research regarding volumetric variability, few results have been achieved in terms of
        specifying TVA’s risk tolerance with respect to volumetric risk, and in terms of
        translating that risk tolerance into the requisite optionality for the formulation of
        dynamic hedge strategies and hedge targets.
    7) TVA uses fixed-volume hedging instruments to hedge a natural gas price exposure that
        exhibits substantial volumetric variability, resulting in a mismatch of both hedging
        strategies and instruments. Changes in hedge targets drive considerable churning of the
        hedge portfolio, undermining hedging performance.
    8) The Fuel Rate Volatility (“FRV”) metric which has recently been introduced by TVA is
        being reported as “effective” while the reduction in the fuel rate volatility over the
        almost six year history of the FTP is zero. It should be noted that much of this result is a
        function of TVA’s volumetric risk.
    9) TVA’s measurement of VaR (“Value-at-Risk”) should be reconfigured so that it includes
        the physical exposures being hedged via the FTP. This would transform the metric into a
        fuel cost at risk metric, which would be a much more appropriate metric for managing
        the FTP.
    10) The FTP should not only be analyzed in isolation but also as part of a cross-commodity
        portfolio which incorporates additional commodities such as coal and fuel oil, including
        both financial and physical positions.
    11) Given that the premise of the FTP is to provide TVA’s customers with reduced exposure
        to commodity price volatility, TVA needs to improve the process by which it determines
        its customers’ risk tolerance. This can be accomplished via a number of ways including
        quantified sampling of customer’s senior management and/or through formal surveys.

    These issues are described in more detail throughout this report.




Mercatus Energy Advisors                         7                           Proprietary & Confidential
        3.0 Findings


        3.1 High Level Overview of the FTP and Overall Objectives


        3.1.1 Overview

        From an industry perspective, the FTP is a fairly straightforward and commonplace
        hedging program for a power generation fuel consumer. It features a programmatic
        strategic approach similar to dollar cost averaging, and has a conservative discretionary
        strategy for executing additional hedges at value prices.

        Although the FTP has been expanded over the years to include multiple commodities,
        the largest component of the FTP is natural gas hedging. And at the heart of the FTP is a
        programmatic time-driven execution strategy for natural gas hedging known in TVA
        parlance as a “hedge ladder,” with a purchase triggering mechanism somewhat like the
        conservative investment strategy of dollar cost averaging.

        The discretionary strategy is primarily driven by discounts based on a historical price
        range of natural gas. “Discretion” is a misnomer because the word usually means that a
        trader or some other party has freedom of action. TVA traders have a degree of
        discretion for executing transactions, but do not have freedom of action regarding
        hedge strategies. A degree of transaction execution discretion is a commonplace
        feature of hedging programs (e.g., transaction execution can occur any time within a day
        to meet daily targets, any time within a month to meet monthly targets). A better term
        for TVA’s “discretionary” hedging strategy, and one that is often encountered in the
        industry, is a “price-driven” or “value” strategy for executing hedge transactions in
        addition to those from a programmatic or “time-driven” strategy. Originally based on
        an eight-year look-back, the FTP’s “discretionary” strategy now incorporates a shorter
        four-year historical range. When prices fall into the lower deciles of the historical range,
        additional hedge transactions are executed.

        Both of these methods for triggering hedge transaction execution are commonplace in
        the energy industry, and conform to best practices. However, with regard to best
        practices, the FTP is lacking in the areas of risk and performance measurement, and risk
        tolerance, and it lacks a sufficiently sophisticated strategy to deal with the substantial
        uncertainty surrounding the volumetric targets for hedging. These issues are discussed
        at length throughout this document.




Mercatus Energy Advisors                         8                           Proprietary & Confidential
        3.1.2 Overall Objectives

        To a degree, the FTP meets its overall objectives of adherence to controls and of,
        “Increasing the predictability of TVA's fuel cost adjustment and to provide rate stability
        and predictability to TVA's customers,” as set forth in TVA’s Commodity Risk
        Management Policy. Recently developed performance metrics show that on a look-
        forward basis the current portfolio is reducing the uncertainty of future fuel costs
        (increasing fuel cost predictability) in accordance with policy objectives. However,
        another recently developed performance metric to measure historical performance
        shows that the variability of fuel rates for TVA’s hedged fuel portfolio has matched, but
        has not reduced, the variability of an unhedged portfolio during the history of the
        program. No rate stability or increased predictability was achieved as of the date of the
        report (4th quarter 2012). This outcome does not meet the overall objectives of the
        program, and is due mainly to the tremendous uncertainty around TVA’s fuel
        requirements and the large volumetric variability of the FTP’s hedge targets. The issue
        of volume variability and how it affects the FTP is addressed in other sections of this
        document.

        A further objective as stated in TVA’s policy is that “the first priority of TVA's commodity
        trading activity is to provide stable, low-cost rates …” “Low-cost” is not defined
        however, and this lack of a definition makes it difficult to assess how well the FTP is
        meeting its low-cost objective.


        3.1.3 Measurement and Determination of Organizational Risk Tolerance

        To date, other than simple volumetric limits, TVA has not incorporated a measurement
        of risk tolerance in the FTP. Risk tolerance has been solely determined and defined by
        the hedging requirements and limits established in TVA’s FTP governance documents.
        Risk tolerance compliance has been controlled through measuring and monitoring
        compliance with the FTP’s prescribed targets and limits.


        3.1.4 Statement and Definition of Risk Tolerance

        In TVA’s Commodity Risk Management Policy, no specific measurement or threshold of
        risk tolerance is mentioned or required. Risk tolerance is discussed mainly from the
        point of view of ensuring that risk is managed through the appropriate use of limits,
        procedures and controls. To illustrate, the following quote comes from Section 3.2.2
        “Risk Appetite and Tolerance” of the policy document: “TVA’s financial risk tolerance is
        defined by the requirements and limits set forth in this Policy. All risk taking and risk
        management activities will be carried out in accordance with this Policy.”

Mercatus Energy Advisors                         9                           Proprietary & Confidential
        It is a best practice to quantify risk tolerance using limits on exposures. But rather than
        using volume as in TVA’s case, it is a best practice to define risk tolerance in terms of at
        least one measure of financial performance (see Section 3.2.3.1 Risk Tolerance). As an
        example, it is a best practice for self-regulated load-serving entities to develop and
        implement a limit around the uncertainty associated with power supply cost, fuel supply
        cost, or rate variability. Other metrics would include defining risk tolerance for liquidity
        risk (i.e., defining a limit on the tolerable amount of margin or collateral required to
        support a hedge program) and defining risk tolerance for credit risk (e.g., maximum
        tolerable exposure to replacement costs, maximum tolerable exposure to expected
        credit loss).

        Once a limit on this metric(s) is chosen (i.e., the threshold between how much risk will
        and will not be tolerated), the size of a hedging program can be inferred by the amount
        of hedge coverage necessary to reduce the amount of risk to below that of the risk
        tolerance threshold(s). Size in this context is defined as the hedging time horizon and
        the number of contracts, or the volumetric amount, that equals the proportion to be
        hedged of the total exposure. This quantitative approach to risk tolerance, by
        quantifying financial performance, identifying a level beyond which the organization
        cannot tolerate, and then determining the amount of hedge coverage necessary to
        reduce risk(s) to the risk tolerance threshold (or below), is notably absent in TVA’s FTP.


        3.1.5 Process(s) Used to Determine TVA’s Risk Tolerance

        As determined from multiple statements in multiple interviews, TVA did not follow a
        process or undertake a specific effort to determine its risk tolerance. To determine the
        size of the FTP, which according to best practices should be a function of a quantified
        risk tolerance, TVA relied on information informally gathered directly from peers and on
        industry benchmark data provided by consultants and TVA executives who previously
        worked for other fuel hedging entities. Although TVA has a pass-through rate structure,
        it has assumed it should hedge fuel price risk to mitigate fuel cost variability and
        uncertainty on behalf of rate payers. But until recently, it appears that TVA
        management did not seek to measure or specifically determine the risk tolerance of rate
        payers. Thus, the size of the FTP (i.e., the amount to be hedged and the time horizon for
        hedge positions) was based heavily on what other hedgers were doing. Peer
        benchmarking can serve two useful purposes: 1) as a sanity check to make sure that a
        hedger’s practices and approach aren’t radically different from its peers (if so, to then
        make sure there’s a valid reason for the difference), and 2) to develop ideas for program
        improvements or changes in areas not previously considered. But peer benchmark data
        should not be the primary rationale for sizing a program.

Mercatus Energy Advisors                         10                          Proprietary & Confidential
        Further, TVA did not undertake an effort to determine how much risk it could tolerate
        and would be willing to warehouse as a result of price risk hedging. Hedging involves a
        trade-off between risks. It is a misconception that hedging can “eliminate” risk. Risk
        never goes away; it is converted into another form via hedging. Most hedging involves
        price risk mitigation through fixed-price transactions, which is essentially the
        transformation of price risk into other risks, including but not limited to credit risk,
        liquidity risk and operational risk, for which a hedger has a higher tolerance. In other
        words, prior to hedging, the hedging party is warehousing price risk, and through the
        process of hedging, the intolerable portion of price risk is subsequently converted to be
        warehoused as credit, liquidity and operational risk. The essential hedging trade-off is
        to convert intolerable amounts of one or more types of risk into tolerable amounts of
        other types of risk.

        Stress testing is a mainstream approach to measuring potential financial performance
        for use in determining risk tolerance. Although TVA’s Commodity Risk Management
        Policy appears to require regular performance of stress testing in three different
        sections (sections 3.1.10 Middle Office, 3.2.8 Quantification of Market Risk, 3.2.11 Key
        Market Risk Reports), and in the Standard Programs and Processes document (Appendix
        F of the TVA COP-SPP-21.4.1 Rev. 0005), interview responses indicated that routine or
        even ad hoc stress testing is rarely performed. In a response to the initial findings of this
        review, TVA indicated that the language in its governance documents regarding the
        requirements and conditions for the performance of stress tests was unclear, and that
        the language has been revised to reflect current practices.

        Interview responses indicated that in sizing its FTP, TVA did not conduct stress tests on
        potential credit or liquidity risk (the main risks into which fuel price risk would be
        converted and warehoused). It is possible that proper stress testing of potential
        liquidity risk (e.g., the potential for margin calls on exchanged-traded futures positions)
        in the past would have led to a better understanding of TVA’s risk tolerance, and TVA’s
        potential intolerance for posting margin, and a reduced size of the FTP, or would have
        led to a different strategic approach.

        Further, Appendix F of the Standard Programs and Processes document lists “CFaR”
        (Cash Flow at Risk) as an example of TVA Middle Office risk analytics yet the Middle
        Office is not calculating this metric. If the Middle Office is not performing CFaR
        calculations, governance documents should be changed to reflect this; however, CFaR
        would be a useful metric for TVA that could be used to define its tolerance to liquidity
        risk.



Mercatus Energy Advisors                         11                           Proprietary & Confidential
        As discussed in several interviews for this project, only after experiencing substantial
        margin calls, and at the behest of TVA Treasury, TVA conducted analysis for the purpose
        of reducing the size of the FTP. In effect, sensitivity to cash flow constraints and margin
        funding requirements helped inform a better sense of TVA’s risk tolerance. However,
        this was achieved indirectly through real-time experience, not directly through an initial
        determination of TVA’s risk tolerance in the original design process of the program.

        Lastly, interview responses indicated that the most recent versions of load and
        production forecasting models show that the economic dispatch displacement of coal
        versus natural gas is a substantial driver of the FTP’s natural gas load forecast and
        resulting hedge targets. It appears that although the current personnel in the Front
        Office, the Middle Office, and in Structuring and Portfolio Management are aware of the
        substantial volumetric uncertainty driving instability in natural gas hedging targets, and
        despite conducting a considerable amount of research regarding volumetric variability,
        few results have been achieved in terms of specifying TVA’s risk tolerance with respect
        to volumetric risk, and in terms of translating that risk tolerance into the requisite
        optionality for the formulation of dynamic hedge strategies and hedge targets. TVA has
        adopted recommended changes to reduce both the time horizon and quantity of its
        natural hedging program, but this has not involved a specific determination of its
        financial risk tolerance. Nor were any changes made to the fixed-quantity instruments
        that comprise the majority of FTP positions or to the strategies used in the FTP. See
        Section 3.13 Evaluation of the Effectiveness of the FTP for more detail on this issue.


        3.1.6 Process and Metrics Used to Determine the FTP’s VaR Threshold

        Interview responses indicated that it appears no specific process was followed to
        determine the FTP’s VaR threshold. The threshold for the natural gas portion of the FTP
        began with a $5 million limit in May of 2005 and was incrementally increased up to the
        current $90 million threshold as of June, 2009. According to interview responses, the
        VaR threshold was selected on an arbitrary basis by the former Chief Risk Officer, and it
        has no material impact on the management of the FTP.


        3.2 Best Practices and the FTP


        3.2.1 Sources of Best Practices

        Before discussing findings regarding how well TVA’s FTP conforms to industry best
        practices, it is important to establish a common understanding of the sources and
        implications of best practices for energy price risk management.

Mercatus Energy Advisors                        12                           Proprietary & Confidential
        It is a common misconception that any suggestion issued or a standard discussed by a
        consultant working for one of the Big 4 consulting firms is in effect an industry best
        practice. Indeed, consultants are reliable sources for best practices, but the Big 4 firms
        are not the headwaters for trading and risk management best practices. Although many
        would struggle to identify the original sources of industry best practices, such sources
        exist and it is important to briefly discuss them to establish a bona fide set of best
        practices as a reference source for this project.

        It is crucial to understand that the primary source of best practices for energy price risk
        management is not within the energy industry. The headwaters of best practices for
        price risk management (for any commodity or financial exposure) originate in the
        banking and financial services industries. And the “modern” financial industry is fairly
        young. The financial industry became a radically different and more complicated and
        risky place after the 1973 seminal research paper by Fischer Black and Myron Scholes,
        "The Pricing of Options and Corporate Liabilities", published in the Journal of Political
        Economy. Otherwise and more commonly known as the Black-Scholes option pricing
        model, this was a truly disruptive technology in the financial marketplace that allowed,
        for the first time, the widespread and consistent calculation of market instruments
        whose value was a function of probability. This model, and its widespread acceptance
        and use, led to a massive expansion in the listing and trading of probabilistic financial
        products. And it also led to a massive expansion of more complex derivative products,
        as the Wall Street banks literally hired rocket scientists and other quantitative experts to
        develop new types of exotic products.

        The 1980s saw the explosive growth of exchange-traded derivatives, the widespread use
        of caps, floors, and collars, and a global financial crisis sparked by a U.S. stock market
        crash fueled by unprecedented levels of price volatility. The early 1990s saw the growth
        of OTC options, swaps, and more exotic derivative instruments, more volatile market
        shocks, and widely publicized and spectacular blow-ups. These events led regulators
        and policy makers to tackle the challenges of formulating new means of measuring and
        controlling risk.

        The first and most significant step in this area was the 1993 publication by the Global
        Derivatives Study Group of the Group of Thirty (”G30”), entitled “Derivatives: Practices
        and Principles.” The Study included over 20 recommended practices for managing
        derivatives trading activity. It was the first comprehensive collection of best practices
        for derivatives trading published by a leading global policy-making organization. It
        included the first published use of the term “value at risk” (Recommendation #5),
        defining it as “the expected loss from an adverse market movement with a specified


Mercatus Energy Advisors                         13                          Proprietary & Confidential
        probability over a particular period of time.” Value at risk made use of many of the
        same probabilistic statistical tools used in the groundbreaking Black-Scholes model.

        As a brief aside, it was the burgeoning RiskMetrics group at J.P. Morgan that spawned
        the symbol “VaR” for value at risk in 1984. RiskMetrics developed and distributed the
        first widely used variance/covariance version of analytical VaR, and has since been spun
        off as a separate entity.

        The G30 report was also the birth of the Middle Office, although the term Middle Office
        wasn’t used in the report. Prior to this time, most organizations had “Trading” and a
        “Back Office,” but did not have an independent risk management function sitting
        between them. Recommendation #8 in the G30 report called for “Independent Market
        Risk Management,” with “clear independence and authority” to ensure that certain
        responsibilities were carried out: risk limit policies and policy compliance monitoring,
        stress testing, reporting, risk measurement and monitoring, and the review and
        approval of valuation models.

        Another source at the headwaters of best practices is the Bank for International
        Settlements (“BIS”). The sub-group of the BIS with the most influence on best practices
        is the Basel Committee on Banking Supervision. Formed in 1974, the Basel Committee
        does not have any formal worldwide supervisory authority, and its conclusions do not
        have legal force. Its purpose is to formulate broad supervisory standards and guidelines,
        and to recommend statements of best practices with the expectation that individual
        banking regulatory authorities will take steps to implement the recommendations
        through detailed arrangements – statutory or otherwise – which are best-suited to their
        own national systems. Thus, even without official legal or regulatory authority, the
        Basel Committee encourages convergence towards common approaches and common
        standards.

        The Basel Committee frequently focuses on capital adequacy. Measuring risk and
        determining the amount of capital necessary to support various types of risk-taking
        activities is the subject of a series of Basel Capital Accords that have been issued
        through the years. These have either specifically included a requirement to calculate
        value at risk (i.e., the 1996 Market Risk Amendment to the 1988 Basel I Capital Accord),
        or have required some type of probabilistic risk calculation for the determination of
        adequate capital.


        3.2.2 Best Practices in the Energy Industry




Mercatus Energy Advisors                       14                          Proprietary & Confidential
        A fundamental difference exists in applying best practices in the financial services
        industry versus applying them in the energy industry. Best practices as developed by
        organizations such as the G30 and the BIS were primarily intended to control risk-taking
        (speculative) activities by banks. Much of the early and principle development of
        trading and risk management best practices occurred before power was deregulated,
        and to a degree, before natural gas prices were deregulated as well. Most hedgers in
        the energy industry, TVA included, are transacting to mitigate price risk on physical
        exposures in order to reduce the net exposure to price risk. G30 and BIS best practices,
        and VaR, were designed to control trading where risk was incrementally added for
        profit-making purposes through transaction activities, not designed for risk reduction
        commodity trading.

        VaR, and essential best practices, were developed for cash-rich (i.e., a large
        unencumbered balance sheet, or a large line of credit) and asset-poor trading
        organizations, not the typical asset-rich / cash-poor hedging entity in the energy
        industry. Consequently, a translation and adaptation of financial services best practices
        is necessary to establish best practice standards in the energy industry, especially for
        entities whose primary objective is risk reduction.

        An excellent source of these translated and adapted best practices in the energy
        industry is the Committee of Chief Risk Officers (“CCRO”). Formed in the early 2000s
        not long after the demise of Enron and the subsequent near-fatal financial crises at
        other energy marketers (e.g., El Paso, Dynegy), the CCRO’s objectives include advancing
        best practices for North American energy companies and markets, functioning as a
        centralized communications nexus for risk issues, establishing best practices for risk
        management in the energy industry, and providing guidance on new risk management
        methods and tools. Two of its main initiatives, due to observed widespread
        insufficiencies in the industry, are in the area of risk-adjusted performance
        measurement for profit-making activities, and in the area of capital adequacy, including
        metrics for measuring potential capital requirements such as stress testing and “at risk”
        types of measurements. The CCRO’s principle tool for communicating best practices is a
        series of white papers available to members, and available to non-members for a fee.


        3.2.3 Best Practices at TVA

        As noted by the multiple consultants who have reviewed the FTP, many elements of the
        program, and the intent of the program, conform to best practices. Of note, these
        include TVA’s trading and risk management organizational structure, including senior
        management risk committees, a Front Office, a Middle Office, and a Back Office, and an
        independent credit risk management function; a clearly stated objective for risk

Mercatus Energy Advisors                        15                         Proprietary & Confidential
        management, an articulated hedge strategy with clearly defined hedge targets; an
        appropriate risk information system of record; and clearly defined limits and controls.

        It is important to note that the recent introduction of performance metrics, prepared by
        the Front Office, is a violation of best practice segregation of duties. Clearly the Front
        Office can be involved in the design and use of such metrics, but they should be
        calculated and reported independently by the Middle Office. TVA can be given a pass
        for this violation because the reports have only been recently developed, but in steady
        state operations, the Middle Office should calculate and report the official version of all
        performance metrics.
        However, beyond the performance metric issue, there are three important areas of
        TVA’s FTP where the program falls far short of best practice standards: risk tolerance,
        stress testing (and the related area of capital adequacy), and performance
        measurement.


        3.2.3.1 Risk Tolerance


        A subset of the risk tolerance issue is the misapplication of VaR at TVA. As noted in
        section 3.14.1 The Misapplication of VaR at TVA, the application of VaR to date is
        essentially useless, other than to allow TVA to check the box that it “has VaR.” To date,
        VaR has been calculated only on a portfolio of hedge positions. This is the original
        application of VaR as envisioned by the G30: to measure the risk of a derivatives
        speculative portfolio. Because TVA does not speculate, the current application of VaR is
        inappropriate.


        The CCRO recommends that an organization’s trading and risk management policy
        include a formal recognition of risk tolerance articulated, defined, and quantified in one
        of several ways including 1) a minimally acceptable earnings or cash flow level, 2) a
        minimally acceptable credit rating, or 3) a limit or target on a measure of financial
        variability which could include VaR (but only for speculative activities) or one of many
        “at risk” types of measures such as Earnings at Risk, Cash Flow at Risk, Fuel Supply Cost
        at Risk, or Rate Volatility (for load serving entities). Using VaR, or a VaR-like risk
        measurement, for this purpose would be an appropriate application of VaR at TVA.

        During interviews for this project, TVA personnel from both the Front and Middle offices
        acknowledged the inappropriate application of VaR and the need to calculate some
        form of “at risk” type of metric to measure the risk of a portfolio including both hedge
        positions and the physical exposures being hedged. The addition of a measurement of
        “Fuel Cost at Risk” or of Rate Variability, along with an organizational effort to quantify

Mercatus Energy Advisors                        16                          Proprietary & Confidential
        the dividing line between how much of those risks it is willing, and not willing, to
        tolerate, or how much rate payers are willing to tolerate, would be necessary to bring
        TVA up to best practice standards in the area of risk tolerance.

        It is important to note that something similar to a “fuel cost at risk” type of metric is
        already being calculated. Based on the OIG’s recommendations for producing
        performance metrics, TVA’s systems planning group started producing Fuel Cost
        Certainty and Fuel Rate Certainty metrics (for more detail see Section 3.2.3.3
        Performance Measurement below). These are based on stochastic modeling around
        fuel costs. Although not explicitly a VaR model, this stochastic modeling is essentially a
        VaR-like approach and can be a useful addition not just for performance measurement
        but also for use in the risk tolerance determination process.

        Further, a prospective Fuel Cost Adjustment at Risk metric has been developed (see the
        TVA presentation entitled Hedge Effectiveness, Portfolio Risk Oversight Committee,
        dated August 14, 2012). This can also provide useful insight into TVA’s risk tolerance,
        but because the metric involves all fuels, it would be difficult to use it to imply
        tolerances, limits, and targets for individual commodities like natural gas.

        Given TVA’s past sensitivity to margin calls, a measurement of liquidity risk, a
        quantification of TVA’s liquidity risk tolerance, and a limit on the liquidity risk metric
        should be implemented.

        A quantification of credit risk tolerance, and a limit on credit exposure, should be
        implemented as well. TVA’s credit risk management policy addresses credit limits to a
        limited extent, and this subject is addressed in more detail in Section 3.12 Analysis of
        Credit Requirements and Controls.


        3.2.3.2 Stress Testing and Capital Adequacy

        The energy industry sports a litany of blow-ups driven mainly by capital shortages
        marked by inadequate measurement and control of potential capital required to
        support trading and risk management activities (see publicly available information
        regarding Metallgesellschaft, Constellation, and El Paso, as a few stark and notable
        examples among many). Although many of the more spectacular blow-ups involved
        marketing or trading businesses rather than load-serving businesses, they shared the
        common theme of crises triggered by substantial hedging-related margin/collateral
        calls.




Mercatus Energy Advisors                          17                           Proprietary & Confidential
        As noted above, hedging involves a trade-off between risks. A hedger that fixes costs or
        revenues through the use of fixed-price transactions or purchased options is transferring
        price risk into other forms of risk for which it has more tolerance for warehousing. Price
        risk gets transformed into many types of risk, with the principle types including credit
        risk, liquidity risk, and operational risk.

        And as noted above, many of the well-known blow-ups in the industry occurred because
        liquidity risk was not adequately measured and managed. One of the main tools for
        measuring potential margin or collateral requirements is stress testing. As noted
        elsewhere in this document, three different sections TVA’s Commodity Risk
        Management Policy call for stress testing (sections 3.1.10 Middle Office, 3.2.8
        Quantification of Market Risk, 3.2.11 Key Market Risk Reports), but contrary to policy
        requirements, stress testing is not being conducted. In a response to the initial findings
        of this review, TVA indicated that the language in its governance documents regarding
        the requirements and conditions for the performance of stress tests was unclear, and
        that the language has been revised to reflect current practices. Interview responses
        indicated that stress tests for potential margin requirements were not conducted in the
        past. Conducting those tests would not have ensured that TVA would have avoided the
        substantial margin calls of a few years past. But with appropriate stress scenarios, TVA
        management would have had a better understanding in advance of potential margin
        requirements.

        It is an industry best practice to establish limits on measures of liquidity for all
        commodity-based businesses. Liquidity metrics, and limits on those metrics, are lacking
        for the FTP.


        3.2.3.3 Performance Measurement

        Until recently, TVA was not calculating a measure of hedging performance. In its
        Commodity Risk Management Policy, TVA’s stated hedging objective is essentially
        volatility reduction, although it is not stated as such. The policy states that the risk
        management includes “Increasing the predictability of TVA's fuel cost adjustment and to
        provide rate stability and predictability to TVA's customers.” Increasing the
        “predictability” of any price-related statistic means reducing the volatility of said
        statistic.

        TVA has recently developed multiple volatility reduction metrics for natural gas hedging,
        including but not limited to: 1) Fuel Rate Certainty (“FRC”), 2) Fuel Cost Certainty
        (“FCC”), and 3) Fuel Rate Volatility (“FRV”). Please see Appendix B which includes
        definitions of these metrics.

Mercatus Energy Advisors                        18                         Proprietary & Confidential
        The volatility of the hedged exposure (physical exposure plus hedge positions) is
        compared to the volatility of the unhedged physical exposure as a means of measuring
        the reduction in fuel cost volatility. This is an effective measurement of volatility
        reduction, but it does not go far enough as it simply measures volatility reduction
        without any regard for the cost of achieving the reduction. A trader for a long hedger
        could purchase 100% of a hedge target at the worst (highest) possible prices over a
        specific measurement period of volatility reduction, and the volatility reduction metric
        would still indicate a highly effective hedging program. But at what cost? It is
        incomplete to measure volatility reduction without understanding the cost of achieving
        the reduction.

        The first two metrics, the FRC and the FCC, are look-forward metrics. They show
        probability distributions for potential fuel rates and fuel costs, respectively, on a hedged
        and an unhedged basis for the current hedge portfolio. Performance in terms of
        volatility reduction is expressed as the difference in value between the 95 th percentile
        point on each distribution and the mean value of each distribution. In other words, if
        the difference between the 95th percentile value and the mean value for the hedged
        portfolio is less than the difference of those two values for the unhedged portfolio, it
        represents the amount of fuel rate or fuel cost volatility reduction that has been
        achieved by the FTP.

        Based on a recent performance report (see Appendix B. TVA Financial Hedging Program
        Indicators), both the FRC and the FCC show that the current hedged portfolio is
        producing substantial volatility reduction benefits. The amount of volatility reduction
        should be called into question however, given that on an historical look-back basis as
        reported by the FRV (defined below in this section); the FTP has achieved zero volatility
        reduction (see Section 3.13.2 Quantitative Evaluation). The primary culprit for the lack
        of volatility reduction to date has been the substantial volumetric variability in TVA’s
        physical short natural gas position that drives substantial churning of the hedge
        position. The FRC and the FCC should be reviewed to determine if volumetric variability,
        and its effect on the churning of hedges, is incorporated in the metrics. If not, given the
        substantial mismatch between look-forward volatility reduction (almost 25% according
        to the FRC) and realized look-back volatility reduction (0%), the accuracy of the look-
        forward measures of volatility reduction is questionable.

        In both cases however, the mean value (expected cost) of the hedged portfolio is above
        the mean value of the unhedged portfolio. This is one measure of the cost of hedging
        (in terms of market costs only). In neither metric is this cost calculated, or compared to
        the amount of volatility reduced to give a clearer sense of the cost incurred to achieve
        volatility reduction.

Mercatus Energy Advisors                         19                          Proprietary & Confidential
        The third volatility reduction metric, the FRV, is a look-back metric to measure how
        much volatility reduction has actually been achieved. The new metric compares the
        volatility of the annual fuel rate for past fiscal years on both a hedged and an unhedged
        basis. This is a standard performance metric for measuring volatility reduction
        (although others often calculate it with finer granularity such as quarterly or monthly)
        and it is a big improvement and addition to TVA’s suite of performance metrics. But
        volatility reduction must be judged relative to the cost of achieving it, and it is the cost
        component that is lacking in TVA’s performance metrics.
        The description of the FRV in the FTP Indicators report (see Appendix B. TVA Financial
        Hedging Program Indicators) should be improved because it does not explain the metric
        in sufficient detail. Does the FRV measure the volatility of the hedged portfolio across
        the entire multi-year hedging horizon during a specific fiscal year, or does it measure the
        volatility of only the 12 months within a fiscal year? The FRV report should also include
        the actual values for each year, rather than presenting a column chart only with no
        values.
        And what commodities are included in “Fuel?” This is not specified in the definitions for
        the metrics. Further, given that different fuels have substantially different volatilities,
        and substantially different hedge targets and hedge strategies, it would be useful to
        measure the discrete performance for individual commodities, especially for natural gas
        because it is such as large component of the FTP and TVA’s fuel cost. This would result
        in a look-back Gas Cost Volatility metric and a look-forward Gas Cost Certainty metric.
        In addition, a retrospective measure of risk management performance was developed
        and introduced last year. In the presentation delivered to TVA’s Portfolio Risk Oversight
        Committee (“PROC”) entitled Hedge Effectiveness, Portfolio Risk Oversight Committee,
        dated August 14, 2012), a retrospective Hedged Gas and Purchased Power Cost metric
        was introduced. The logic behind the construction of this metric is unclear. Why has
        natural gas been combined with power purchases, but other fuels excluded? It would
        be useful to discretely measure the volatility reduction of each aspect of the hedging
        and procurement, including natural gas, other fuels, and power.

        In terms of measuring historical hedging performance, the various retrospective metrics
        are reporting inconsistent or unclear results. The Fuel Rate Volatility metric reports that
        no volatility reduction has been achieved from Fiscal Years 2006 through 2012 (i.e., 44%
        volatility for both the hedged and unhedged fuel portfolios from FY2006 through
        FY2012). And by examining the chart included in the report, it appears that very little
        volatility reduction was achieved in the shorter period of 2009 through 2012, whereas
        the Retrospective Hedged Gas and Purchases Power Cost metric reports a 23%
        reduction of volatility from 2009 through 2012. If this is true, then the only way to
        reconcile the two metrics is to imply that power purchases are responsible for the vast

Mercatus Energy Advisors                         20                           Proprietary & Confidential
        majority of volatility reduction achieved in 2009 through 2012. Without explicitly
        calculating the performance of gas hedging only, it is difficult to ascertain the hedging
        performance of specific portions of the FTP.


        3.2.3.4 Cost/Benefit


        One of the recommendations of the OIG was for TVA management to perform a
        “comprehensive” cost/benefit analysis of the FTP. The resulting analysis lacked many of
        the cost components that should be incorporated – costs that have been included in
        other TVA analyses and presentations. Examples of these costs are presented below
        after the list of suggested cost components to be included.

        In terms of costs for use in a cost/benefit analysis, there are two types of costs to
        consider. For a long hedger, the effective (hedged) cost of the commodity should be
        compared to the market cost. This comparison needs to be presented and considered
        carefully because in a market with declining forward prices, any long hedger will
        experience an effective cost that is above the market cost. This leaves the hedging
        program open to inappropriate or uninformed hindsight criticism. It is not the intention
        of this report to criticize the magnitude of past negative cash settlements and margin
        calls from futures hedges. However, it is the intention to point out that the FTP lacks a
        best practice metric for liquidity risk (potential margin/collateral requirements), and a
        quantification of TVA’s liquidity risk tolerance.

        Having an effective cost above the unhedged market cost is not in and of itself a
        problem. It would only become a problem if the gap between a higher effective
        (hedged) cost and the lower market cost became unacceptably large based on the
        hedger’s tolerance for risk. This gap could become another metric for further defining
        TVA’s risk tolerance, and it is an important measure of potential exposure that should
        be probed and tested through stress testing. Scenarios with large price movements
        should be developed, both positive and negative, and current or prospective hedges
        should be valued according to those scenarios. The lack of stress testing at TVA renders
        moot the point of probing the organization’s risk tolerance through scenarios of large
        and potentially intolerable differences between the effective cost of fuel and the market
        cost of fuel.

        The other type of cost to be measured and compared to the benefit of volatility
        reduction is any cost that would not be incurred if an organization was not hedging. The
        cost of hedging should include the following:
             Overhead and Personnel (e.g., general and administrative overhead,
                compensation including benefits) – this would not be just the specific personnel

Mercatus Energy Advisors                         21                          Proprietary & Confidential
                involved in the FTP, but would also include a portion of the compensation for
                senior managers who oversee the program, plus support services and functions
                such as Treasury, IT, and auditing, and an allocation of overhead costs (office
                space, utilities, communication costs).
               Risk Information Systems (e.g., deal capture and reporting system of record,
                external risk systems) – this category would include the FTP's share of all
                software costs, implementation costs, and annual maintenance costs.
               Cost of Capital for:
                    o Posting and maintaining margin or other collateral
                    o Credit reserves (if maintained)
                    o Risk reserves for operational risk (if maintained)
               Transaction Costs:
                    o Commissions and fees
                    o Bid/ask spread - unless TVA is a market maker, its hedging activities
                        define it as a price taker, which means that it buys above fair value at the
                        prevailing offer, and when it sells for liquidation purposes, it sells below
                        fair value at the prevailing bid. Even if it buys based on scaled down limit
                        orders, at the time a limit order is filled the limit price is at the current
                        offer price, not at the fair market/mid-market value. [Note – this is not a
                        trivial calculation, but an estimate of the average value of bid/ask spreads
                        can be maintained and applied to all hedged volumes to produce a
                        reasonable estimate of transaction costs. Bid/ask differential costs have
                        been included in other recent analyses by TVA – see PROC NatGas Hedge
                        Ladders v10.pdf.]
               Fees paid to consultants for services related to the FTP
               Losses due to credit defaults
        Again, the common theme for this list is the inclusion of any cost that would not be
        incurred if a hedging program was not being operated.
        Calculating the cost of hedging at TVA presents a challenge because multiple
        commodities, both physical and financial (e.g., physical gas, financial gas, coal, power),
        are being managed as part of an overall supply management and risk management
        effort. Many of these activities share many of the costs listed above; thus, to calculate
        the costs of the FTP for a single commodity (e.g., financial natural gas), an allocation
        scheme would need to be developed to allocate shared costs (e.g., risk information
        system costs).To quantify the benefits in a cost/benefit calculation, TVA used the FCC.
        This is an appropriate choice for a look-forward measure of the volatility reduction
        benefits of the program, but TVA should also use the FRV as a quantitative measure of
        historical benefits.



Mercatus Energy Advisors                         22                           Proprietary & Confidential
        It is important to note that the cost/benefit analysis prepared by TVA management did
        not include certain costs that have been included in other FTP-related analyses and TVA
        presentations. Examples include the June 5, 2012 presentation to the PROC where
        margin funds and bid/ask spread differentials were included as costs, and the FY13 Fuel
        and Purchased Power Contracting Plan which includes natural gas hedging results as a
        cost component in the calculation of Total Gas Expense.
        It is also important to address the issue of when to include mark-to-market or realized
        gains and losses in cost/benefit analyses. Realized gains and losses for the period being
        analyzed (e.g., a fiscal or calendar year) should be included in all historical (look-back)
        performance reports and cost/benefit analyses. The total effective cost of a hedged
        commodity should include all realized gains and losses for the time period in question.
        Mark-to-market (unrealized) gains and losses for all yet to be settled hedge transactions
        should be included in look-forward cost/benefit analyses and performance
        measurements. When hedging benefits are being measured and reported, such as a
        reduction in cost uncertainty, the corresponding effective hedged cost of the
        commodity, which should include unrealized gains and losses, should also be reported.
        As an example, consider the FRC and FCC performance metrics that were provided to
        the OIG in response to its audit. These are the first two metrics included in the
        performance report in Appendix B. The report quantifies the reduction in uncertainty
        (benefit) between unhedged and hedged portfolios, and yet while the graphs show a
        hedged cost above the unhedged cost, the report fails to quantify the market cost
        (based on unrealized gains and losses) of achieving the quantified benefit.


        3.3 Effectiveness of the Control Environment

        From a simple perspective, the control environment for the FTP is effective. As noted in
        numerous consultants’ reports, TVA has a good track record of adherence to the FTP’s
        primary limits, which are the hedge ladder and additional discretionary targets.

        However, other controls are lacking that would be tied to a quantifiable risk tolerance(s)
        such as limits on fuel rate variability (e.g., a risk tolerance threshold/limit on “fuel cost
        at risk”) and limits on actual or potential collateral/margin funding.


        3.4 Trading Results

        From FY 2006 – FY 2006, according to TVA’s annual reports, as filed with the Securities
        Exchange Commission, TVA recognized natural gas hedging gains and (losses) as follows:

        2006: ($23,000,000)

Mercatus Energy Advisors                         23                           Proprietary & Confidential
        2007: ($45,000,000)
        2008: $10,000,000
        2009: ($405,000,000)
        2010: ($152,000,000)
        2011: ($164,000,000)
        2012: ($352,000,000)

        While analyzing the specific month-by-month trading results of the FTP is beyond the
        scope of this document, it is important to note that the design of the FTP is such that
        the program will produce material gains or losses if/when natural gas prices increase or
        decrease significantly and remain in the subsequent higher or lower price range for a
        sustainable period of time, as has been the case in recent years. These gains and losses
        are a result of the methodology of a “laddered” hedging strategy using fixed-price,
        fixed-quantity hedging instruments such as swaps and futures contracts, which is
        discussed at length in other sections of this report.


        3.5 Organizational Structure and Compensation Policies

        As a general rule, the organizational structure employed by TVA is similar to other
        power generation companies and generally meets industry standards, with one
        exception. As noted in 3.2.3, industry best practices dictate that the Middle Office
        should be responsible for calculating and reporting the official version of all
        performance metrics to ensure that said metrics are completely independent from the
        Front Office.

        In addition, TVA could further improve the organizational structure as it relates to the
        FTP by reorganizing the Front Office so that all Front Office activities occur within the
        same group and physical location. Doing so should significantly improve the
        communication channels between the various stakeholders which, in turn, should
        improve TVA’s ability to better manage and mitigate commodity risk exposure across
        the entire portfolio.

        Regarding compensation policies, while compensation as a whole is beyond the scope of
        this review, interviews indicated that TVA’s compensation policies meet industry best
        practices for companies who prohibit speculative trading in that compensation is not
        tied to the performance of the FTP or other trading results.


        3.6 Review of Governance Documents



Mercatus Energy Advisors                         24                          Proprietary & Confidential
        To a large degree, but with a few of notable exceptions, TVA’s governance documents
        for the FTP are relatively effective and generally conform to best practice standards.
        The documents reviewed for this project include:

           Commodity Risk Management Policy: TVA-SPP-13.18
           Financial Trading Program (Procedures and Processes): COP-SPP-21.4.1 Rev. 0005
           Hedge Strategy: Natural Gas Financial Hedge Strategy Sheet rev 8.8.01.11
        In terms of best practices, the three documents cover the purpose, scope, and
        objectives of the FTP; roles and responsibilities including the board of directors, senior
        management, risk committees, and support functions including credit, legal, and
        treasury functions; an appropriate segregation of duties; an identification of most of the
        important risks involved in the program; the inclusion of several important risk metrics;
        clear authorization and delegation of authority, and clear limits and controls; and a well-
        articulated hedge strategy.
        However, there are some important issues not covered in the governance documents.
        As discussed elsewhere in this document, it is a best practice to quantify risk tolerance
        in terms of at least one measure of financial performance. The governance documents
        fail to define and quantify TVA’s risk tolerance or to include limits on financial
        performance. The only reference in the policy document to a “financial” risk tolerance
        is that it is “defined by the requirements and limits set forth in this Policy.”
        Although many of the risks faced by TVA (e.g., price risk), or that are incurred because of
        the FTP (e.g., credit risk, operational risk), are addressed in the policy, important risks
        that have substantially impacted the FTP are not included. These include liquidity risk
        and instrument suitability risk. TVA has faced challenges with margin funding, and the
        performance of the FTP suffers from an instrument mismatch due to the use of fixed-
        quantity instruments to hedge variable volumetric exposures. The instrument suitability
        issue is discussed in more detail in Section 3.8.3 Strategy and Hedging Instrument
        Mismatch, and Section 3.13.1 Qualitative Evaluation.
        The governance documents include best practice risk metrics and controls such as
        volumetric limits, dollar transaction limits, stop-losses, and VaR limits (although VaR
        limits are so high as to be generally ineffective), but fail to include a best practice metric
        and limit for liquidity risk (e.g., Cash Flow at Risk, Margin at Risk) which has proved
        through real-time experience to be a sensitive internal issue.
        Lastly, although a written attestation of employees’ understanding of their
        responsibilities under TVA’s policy is included, the governance documents fail to include
        specific potential mitigating actions and repercussions that will occur when risk
        management limits and policies are violated.


Mercatus Energy Advisors                          25                           Proprietary & Confidential
        3.7 Analysis of Risk Metrics

        As is addressed in various sections of this document, VaR, the primary metric which is
        used to quantify the risk associated with the FTP, is often an inadequate, primary risk
        metric for a power generation company such as TVA (see section 3.2.3.1 Risk Tolerance
        which addresses VaR and makes recommendations for other metrics which are more
        applicable to a company such as TVA). While TVA has improved its analysis of various
        risk metrics since the OIG published their report (as an example, see OIG Financial
        Trading Program Audit – Completed Recommendations Rev 1), TVA’s most significant
        risk as it relates to the FTP, volumetric risk, is still not being addressed, analyzed or
        stress-tested in a fashion that meets industry best practices. While various aspects of
        this specific issue are addressed at length in subsequent sections of this report, industry
        best practices would dictate that TVA should not only analyze the FTP in isolation but
        also as part of a comprehensive cross-commodity portfolio, which would include all
        relevant risk metrics (i.e. market, volumetric, operational, liquidity and credit risk) for all
        relevant commodities (e.g., natural gas, coal, power, fuel oil) A portfolio analysis of this
        sort will provide TVA with a much more thorough and quantitative understanding of its
        portfolio risk, which would in turn allow it to better mitigate and manage volumetric
        risk. While such a task will require a significant commitment of both time and
        resources, it is a necessary undertaking if TVA desires to meet industry best practices.
        See section 3.17.2 Performance Measurements for more on this topic. In addition, as
        addressed in other sections of this document, in order to meet industry best practices,
        TVA needs to improve its overall risk analysis as it relates to the FTP.


        3.8 Analysis of Trading and Hedging Strategies

        From one perspective, the FTP’s trading and hedging strategies, and the instruments
        used, have been appropriate and effective. A conservative strategy of a hedge ladder,
        akin to dollar cost averaging, is the most common hedge strategy pursued by consumer
        hedgers and is the primary non-discretionary hedge strategy of the FTP. The hedge
        ladder also serves as the primary limit structure for FTP hedge executions and positions
        (see document: TVA Financial Trading Program – Strategy 1072 REV8 5.11.11, Appendix
        A). TVA has avoided using exotic instruments, and has stayed with plain vanilla futures,
        swaps, call options, collars (fences) and synthetic calls.

        From a more advanced perspective, and from a best practice perspective, several
        strategic aspects of the FTP are lacking. These include:
             Some discretionary trading strategies
             The choice of hedging instruments from the perspectives of:
                    o TVA’s creditworthiness

Mercatus Energy Advisors                          26                           Proprietary & Confidential
                    o A lack of appropriate risk metrics and associated controls
                    o The lack of determination of risk tolerance for liquidity risk
               A lack of appropriate hedge targets and a lack of suitable market instruments
                that result in a strategic and instrument mismatch due to the substantial
                volumetric uncertainty of the natural gas exposures being hedged.


        3.8.1 Discretionary Strategies


        Some discretionary strategies have been ineffective and inappropriate – one example of
        an ineffective strategy is the discretionary strategy to execute additional hedges at
        perceived attractive values when prices fell into lower deciles of a trailing long-term
        historical price range (see document: TVA Financial Trading Program – Strategy 1072
        REV8 5.11.11, Appendix C). Although the strategy of executing more hedges when the
        market meets specific price targets is an accepted best practice strategy, the use of an
        eight-year look-back period in TVA’s strategy did not allow sufficient responsiveness to
        new market fundamentals driven by the disruptive technology of fracking and the rapid
        switch to a fundamentally new and much lower price regime. The strategic approach is
        not fundamentally wrong, but a long eight-year look-back period muted sensitivity to
        more recent market developments, and the substantial quantities purchased based on
        this discretionary strategy exacerbated the margin/cash flow issue that prompted a
        reexamination of the FTP and the subsequently reduced size of the program.

        An example of an inappropriate discretionary strategy is the Trend strategy (see: TVA
        Financial Trading Program – Strategy 1072 REV8 5.11.11, Appendix D). This strategy
        utilizes a trend following model whereby additional hedges could be executed when a
        positive trend of the market was identified. However, accumulating hedge positions
        based on positive trend identifications is not appropriate for a hedging program unless
        the trend-based hedge positions are liquidated when the trend turns lower. The sole
        value of a trend following methodology is that it has proven to be the most effective
        long term technical method for extracting value from a market provided that the
        underlying market moves in trends of significant duration and magnitude, and all signals
        from the trend following model are followed faithfully. Multiple studies have shown
        that the success rate of trend-following systems ranges from 25% to 40%, success being
        defined as the percentage of trades closed at a profit inclusive of transaction costs. The
        fact that such an approach is guaranteed to produce more losing closed trades than
        winning closed trades necessitates that any position initiated on a trend indication must
        be liquidated when the trend signal reverses (or upon the signal from a complimentary
        exit indicator), otherwise average losses will exceed average gains. The only way for a
        trend system to produce value over a large sample size of trades is for the lower
        probability average profit per trade to exceed the higher probability average loss by a

Mercatus Energy Advisors                        27                          Proprietary & Confidential
        large multiple (usually greater than 3:1 at a minimum). Thus, the liquidation aspect of
        the system is at least of equal importance to the entry signals.

        Given that the TVA program was never intended to speculate, that hedges were never
        intended to be liquidated prior to maturity, and that a successful trend-following
        approach mandates the liquidation of previously initiated positions, this strategy is
        antithetical to a conservative hedging intent and approach. Fortunately, according to
        information gained from interviews, this particular discretionary strategy is no longer
        part of the FTP, and its contribution to FTP results was apparently not material, but it is
        indicative of some of the non-best practice strategic thinking and design of the FTP.


        3.8.2 Liquidity and Credit Issues

        Another strategic issue is the use of exchange-traded instruments without the best
        practice support of metrics and controls for liquidity risk, and without regard to
        optimizing TVA’s credit standing in the marketplace. Substantial margin calls for the FTP
        occurred in the past which evidently exceeded the implicit risk tolerance of TVA as
        evidenced by the concerns voiced by Treasury. The occurrence of negative cash
        settlements and margin calls is not a problem in and of itself. This is a typical
        occurrence at some point in the history of any consumer hedger. But the problem lies
        in the magnitude of the cash flows and margin calls if, and only if, that magnitude
        effectively exceeds the risk tolerance of the hedging organization. In TVA’s case,
        sufficient risk measurement, monitoring, and controls were not in place, and TVA’s
        improved understanding of its liquidity risk tolerance was gained via real-time
        experience, not through testing in advance and research into determining TVA’s risk
        tolerance.

        The heavy reliance on exchanged-traded futures did not allow TVA to take full
        advantage of its superior creditworthiness. Futures exchanges demand collateral of all
        market participants as if each participant is junk-rated. No positive discrimination exists
        with regard to creditworthiness (i.e., better credits allowed to post less
        margin/collateral than worse credits). Consequently, TVA’s use of futures contracts
        forces it to post collateral (margin) when it could avoid doing so by using an instrument
        such as a swap with an almost identical payoff profile but without the exchanged-traded
        requirement to post substantial margin.

        Lately, the strategic focus of the FTP has shifted to a greater reliance on OTC swaps.
        This offers the benefit of reduced margin funding requirements by taking into account
        TVA’s superior credit status and taking advantage of the large lines of unsecured credit
        offered by numerous creditworthy counterparties.

Mercatus Energy Advisors                         28                          Proprietary & Confidential
        But it also presents the challenge that the effective cost of fuel from OTC swap hedging
        is less transparent than with futures hedging. One of the unintended benefits of the use
        of futures is that brokerage account statements are regularly sent to hedgers, and the
        constant ebb and flow of margin cash flows makes the results of futures trading highly
        visible within an organization. Whereas the use of OTC swaps, when combined with
        large lines of credit, tends to make the net effective above-market cost in cases where
        market prices fall below the purchase level of swaps much less visible in an organization.
        This must be addressed through middle office reporting to ensure that the hedged cost
        of gas (via hedging with OTC swaps) versus the market price of gas is highly transparent
        within an organization.


        3.8.3 Strategy and Hedging Instrument Mismatch

        TVA’s use of fixed-price, fixed-quantity instruments to hedge an exposure with
        substantial quantity uncertainty is also an issue. The potential displacement of coal
        versus gas in TVA’s generation portfolio drives substantial variability in TVA’s fuel use
        forecasts, and consequently leads to substantial uncertainty and variability in the FTP’s
        hedge targets. Hedging a price exposure with an uncertain quantity through the use of
        fixed-quantity hedging instruments such as exchange-traded futures and OTC swaps is a
        mismatch. TVA’s short physical natural gas exposure is a two-part exposure where each
        part should be hedged with different instruments and strategies. This concept is
        discussed in more detail in Section 3.13.1 Qualitative Evaluation.


        3.9 Analysis of Trading Discretion

        As noted in 3.1.1, the types and amounts of trading discretion given to the individuals
        responsible for executing the FTP’s hedging transactions are similar to the discretion
        given to those in similar roles at other power generation companies and conform to
        standard industry practices.


        3.10 Analysis of Trading Limits and Controls

        The trading limits set for those managing the FTP and the related controls conform to
        industry standards.




Mercatus Energy Advisors                        29                         Proprietary & Confidential
        3.11 Analysis of Credit Requirements and Controls

        As discussed in multiple sections of this document, the FTP’s credit requirements have
        changed substantially through the years. In earlier periods, exchange-traded futures
        contracts were a primary hedging instrument of the FTP and required substantial margin
        funding. This resulted in TVA not optimizing its strong creditworthiness. Recent
        increased use of OTC swaps has reduced the funding requirement.

        The FTP has suffered from a lack of metrics and controls focused on liquidity risks.
        Substantial margin funding requirements in the past have become a concern of Treasury
        and other areas within TVA. To date, no stress testing, or margin/collateral at risk types
        of metrics, have been used to measure or subsequently control potential funding
        requirements.

        TVA’s credit risk policy was reviewed as part of this project (TVA Corporate Credit Policy
        TVA-SPP-13.38 dated 08-13-2010). The only reference in the document to credit limits
        is in section “3.2.1 Guiding Principals (sic) (7)”: “Corporate will assign a limit or threshold
        based on TVA’s internal assignment of the counterparty’s credit rating …” No reference
        is made to an overall credit limit, to a portfolio credit metric or to a risk tolerance for
        credit risk, other than on an individual counterparty basis. Specific counterparty credit
        limits are not included in the policy, nor is there a reference to where the credit limits
        are maintained. In response to the initial findings of this review, another copy of the
        credit policy was provided by TVA (Credit Policy 10-06-03). This copy of the policy
        includes credit threshold limits/maximum credit exposure limits. However, the credit
        limits are only single values for each credit rating, whereas the preferred industry
        practice is to base credit limits/thresholds on some form of equity multiplier or other
        size adjustment linked to credit ratings in order to account for the relative financial size
        of counterparties, further subject to a maximum amount per credit rating.

        A copy of the Commodity Counterparty Report dated 05-03-12 was provided as part of
        the documentation for this project. An examination of this report found no credit limits.
        In a response to the initial findings of this review, TVA provided additional credit
        documents including a counterparty exposure report with total credit exposures along
        with credit limits and collateral amounts. However, the additional counterparty credit
        reports do not include concentration limits.


        3.12 Model and Data Analysis




Mercatus Energy Advisors                          30                           Proprietary & Confidential
        While an in depth analysis of the models and data analysis utilized by TVA for the
        purposes of the managing the FTP is beyond the scope of this review, numerous related
        topics are addressed throughout this document.


        3.13 Evaluation of the Effectiveness of the FTP



        3.13.1 Qualitative Evaluation

        From a narrow perspective, that of evaluating the effectiveness of the FTP in achieving
        its primary goal of volatility reduction (fuel cost uncertainty); the FTP has been
        somewhat effective. Hedge ladder compliance is a major focus and driver of Front
        Office activities, and from this perspective, the program has been effective. The Front
        Office has a strong history of hedge ladder compliance, and by some measures the
        program has achieved a reduction in fuel cost variability and uncertainty. However, a
        historical performance measure shows that the FTP hasn’t achieved a reduction in fuel
        rate variability (see Section 3.13.2 Quantitative Evaluation below).

        One important event that disrupted the general effectiveness of the FTP from the
        perspective of hedge ladder compliance was a senior management intervention of the
        program in 2009. According to information obtained from interviews, the rationale for
        the intervention was that market prices were several dollars per MMBtu below budget,
        and management wanted to lock-in below budget fuel costs. The directive was to
        “completely hedge out for as far as we can.” This senior management override of the
        hedge ladder execution schedule resulted in a much larger hedge portfolio of long
        positions which led to increased margin requirements and which triggered TVA
        Treasury’s concern regarding liquidity issues and margin funding requirements.
        Although adding hedge positions to lock in fuel prices below budget technically met
        TVA’s risk management objectives of increasing the predictability of TVA’s fuel cost
        adjustment and of providing rate stability, it also exacerbated TVA’s challenge of
        managing a hedge portfolio with uncertain volume requirements. The issues of
        volumetric uncertainty and churn in the hedge portfolio are addressed further below in
        this section of the document.

        From a broader perspective, assessing the effectiveness of the program is a murkier
        proposition. As noted elsewhere in this document, volatility reduction shouldn’t be
        judged in isolation, but in the context of the costs incurred to achieve volatility
        reduction. Because a more comprehensive and accurate cost/benefit analysis has not
        been conducted, it is difficult to assess the effectiveness of the program even from a
        qualitative standpoint. The recently produced cost/benefit analysis is lacking. As noted

Mercatus Energy Advisors                       31                          Proprietary & Confidential
        elsewhere in this document, the initial cost calculation is incomplete. And to properly
        report and gauge hedge effectiveness, the average price of the hedged portfolio should
        be presented along with unhedged market costs whenever volatility reduction is
        reported.

        Another murky area is risk tolerance. Many load-serving entities must satisfy regulators,
        and in recent years regulators have become much more knowledgeable about hedging
        alternatives, both in terms of quality and quantity, and about prospective benefits and
        costs. This has led to specific hedging mandates, including such specifics as hedge
        durations, amounts of hedge coverage and market instruments (e.g., use of options), or
        to tacit approval of utility’s hedge plans that include such specifics.

        TVA is different than most load-serving utilities that hedge natural gas for power
        production because it does not have to satisfy a regulator. Despite the ability to pass
        through fuel costs, TVA has decided it should mitigate fuel cost variability on behalf of
        its rate payers. However, TVA has done little analysis to date to sample and determine
        the specific risk tolerance of rate payers, or to quantify even a general risk tolerance.
        Without developing a more concrete sense and quantitative measurement of the risk
        tolerance of rate payers, and by basing the size of the FTP (hedge quantities and hedge
        durations) heavily on benchmarking and peer data, it is highly possible that the
        objectives of the program and the financial results to date are not sufficiently effective.
        The objectives of the program include reducing fuel cost volatility (actually, the
        objective is phrased in governance documents as “increasing the predictability of the
        fuel cost adjustment”) and providing low-cost rates. Is the program meeting the risk
        reduction objectives of rate payers while conforming to their risk tolerance and meeting
        their cost objectives? At present, this fundamental and essential question cannot be
        answered. Thus, the effectiveness of the program is difficult to gauge.

        Lastly, hedge targets are substantially driven by the price level of natural gas and by
        power dispatch forecasts including fuel use forecasts. The dramatic reduction of gas
        prices over the last few years has radically affected the fuel mix of TVA’s generation
        fleet because natural gas has displaced coal to a large extent. Switching back and forth
        between coal and natural gas drives substantial volumetric uncertainty around TVA's
        expected fuel burns. For example, interview responses indicated that at $4.00 per
        MMBtu, TVA’s anticipated annual natural gas consumption for power generation would
        be approximately 70 Bcf, whereas at $2.50 per MMBtu, the anticipated consumption
        would be 200 Bcf – almost a 3-fold increase. The gas burn from one year’s peak season
        to the next can easily vary by as much as 2-fold. The charts in Appendix C illustrate the
        challenges of variable natural gas forecasts.



Mercatus Energy Advisors                        32                          Proprietary & Confidential
          This uncertainty drives tremendous volatility in the FTP’s natural gas hedge targets. The
          uncertainty surrounding hydroelectric generation further exacerbates the variability of
          natural gas hedging targets. Churning of the hedge portfolio driven by hedge target
          variability undermines the effectiveness of the FTP and is a concern of TVA
          management.
          In 2012, TVA management attempted to address this issue. It conducted an extensive
          analysis with the intention of revising the FTP natural gas hedging strategy to improve
          the program’s effectiveness. The conclusions reached from the analysis led to a
          shortening of the forward hedging time horizon and a reduction of hedge ladder
          quantities.
          However, the reduction in hedging term and volume will only reduce the ineffectiveness
          of the FTP – the reduction will not go far enough to solve the essential problem. In the
          July 31, 2012 Natural Gas Hedge Ladders Price Strategy Presentation in which TVA
          management proposed the reduced hedge ladder, among the conclusions reached are
          that the revised hedge ladder “takes advantage of embedded physical options” and
          “promotes effectiveness of hedge types.” The reduced hedge ladder will only
          somewhat take advantage of TVA’s natural physical embedded option.
          The proposed solution and adjustment to the hedge ladder is labeled as the “Coal
          Adjustment,” with the proposed “Physical Option Model” leading to a “-0.35 Bcf\year
          adjustment” in hedge volume. Although not without a modest benefit, this is an
          insufficiently effective single point static solution to a dynamic problem of constant
          variability.
          The main culprit in the historical ineffectiveness of the FTP appears to be that the
          uncertain volumetric targets are being hedged with unsuitable instruments based on
          volumetric certainty, such as futures contracts and swaps. Hedging uncertain volumes
          with market instruments based on volumetric certainty is an instrument and strategic
          mismatch. Only by using options and option hedging strategies can TVA fully take
          advantage of the embedded physical optionality that drives hedge target uncertainty.
          Probabilistic and uncertain exposures should be hedged with market instruments whose
          effective exposures and values are a function of probability. Physical optionality is
          better hedged with options and option strategies rather than with the fixed-quantity
          instruments that are currently the mainstay of the FTP. Even if fixed-price instruments
          are used to synthetically mimic an option exposure (and it is crucial to remember that
          only option delta can be synthetically created – the essential and unique characteristic
          of options, gamma, cannot be synthetically replicated1), the quantities and portfolio
          adjustments should be directed by the precision of an option valuation model, not
1
 It is also crucial to remember that a synthetic option approach involves an implicit volatility position (long or short depending
on the strategy), something that many hedgers often overlook, and which may be inherently antithetical to their risk
management policy, strategic restrictions, and controls.

Mercatus Energy Advisors                                        33                                   Proprietary & Confidential
        through haphazard adjustments driven by periodic updates to a load forecast and
        subsequently refreshed hedge targets.

        From interview responses and presentations to the PROC that were reviewed for this
        project, it is evident that the FTP’s hedge targets progressively increase as natural gas
        prices fall because the fuel use forecast shifts to less coal and more gas, and when
        natural gas prices rise, the hedge targets decline as the expected fuel burn shifts to
        more coal and less gas. Considering this exposure in abstract, TVA’s physical short
        natural gas exposure is like a put. A put increases its exposure when prices fall (TVA’s
        physical natural gas exposure increases as prices fall), and the effective exposure of a
        put declines when prices rise (TVA’s physical natural gas exposure decreases as prices
        rise). In options parlance, TVA’s short natural gas exposure is a negative delta, positive
        gamma exposure. TVA is hedging this uncertain, probabilistic exposure with fixed-price,
        fixed-quantity instruments (positive delta but zero gamma) – a mismatch. Without
        drilling down too far into option theory, many hedgers have a dangerous negative
        gamma exposure in that as market prices move in an adverse direction their exposure
        grows – a double whammy. TVA is fortunate in that it does not suffer from this problem
        – it is fortunate to have a positive gamma exposure on the short side of its book. As
        market prices move in an adverse direction, its exposure shrinks. The FTP would be
        much more effective if TVA incorporates this beneficial quality of its exposure into its
        hedge strategy and choice of hedging instruments.

        Although measuring the degree of this variable exposure and researching and
        formulating a specific recommendation for improving and optimizing TVA’s natural gas
        hedging strategies, is beyond the scope of this review, it is evident even without
        conducting a detailed analysis that the FTP would be more effective if the short position
        would be divided into two tranches. As illustrated in Appendix C, Figure 4, Dividing
        Hedge Targets into 2 Tranches, Tranche 1 would be a baseload exposure representing
        the minimum short exposure regardless of coal/gas displacement. In other words, the
        Tranche 1 target(s) would be the same regardless of the price of natural gas. Tranche 2
        would be a variable exposure driven by coal/gas optionality.
        Tranche 1 is what the current FTP is designed to hedge: a fixed volume exposure
        hedged with fixed-price, fixed-quantity instruments. The current FTP strategy and
        instruments should be quite effective in hedging the Tranche 1 risk. Tranche 2 should
        be hedged with instruments and strategies giving TVA flexibility regarding the effective
        hedge exposure. As the natural gas burn forecasts cycles up and down, the Tranche 2
        hedges should cycle up and down to a degree based on hedge instruments and
        strategies that produce asymmetrical payoff profiles, not the fixed-quantity,
        symmetrical payoff profile of futures and swaps.


Mercatus Energy Advisors                        34                          Proprietary & Confidential
        In effect, based on the current FTP strategy where hedges are liquidated when the
        hedge targets decrease, the hedge portfolio is being traded as a portfolio of synthetic
        short put options using a rudimentary approach. As an example, consider what happens
        to natural gas targets when natural gas prices move up and down. The lower the gas
        price, the higher the hedge target (based on a higher expected natural gas burn),
        leading to greater purchase quantities of futures and swaps, and the higher the gas
        price, the lower the hedge target (based on a higher expected coal burn) which drives a
        liquidation of futures and swap hedges.

        Buying more fixed-price, fixed-quantity contracts as prices fall, thereby increasing the
        long position, and liquidating contracts as prices rise, thereby reducing the long
        position, synthetically replicates a portfolio of short put options. And worse yet is that
        the synthetic short put approach does not provide the benefit of option premium
        collection that would occur if TVA was selling puts. The effective exposure of a short put
        increases as prices fall, and decreases as prices rise. Adjustments to the long hedge
        position driven by changes to the burn forecast (as driven by price movements in
        natural gas) lead to the unintended but implicit effect of synthetically replicating a short
        put position, which is not a ”TVA Approved Option Technique.” (Financial Hedge –
        Strategy Sheet, Appendix E) A short put is not an effective hedge against rising prices.
        Short puts can play a role in a consumer hedger’s program as income enhancement
        trades to lower the cost basis of physical fuel purchases, but a short put approach
        should not be the main component of a long hedging program. This strategic mismatch
        leads to an ineffective hedge result.

        In conclusion, volumetric variability, which drives unwitting synthetic short put
        replication in the hedge portfolio, is not being effectively addressed and undermines the
        effectiveness of the FTP that primarily uses straightforward fixed-price, fixed-quantity
        instruments such as futures and swaps.


        3.13.2 Quantitative Evaluation

        To date, the primary performance metric that could be used to quantitatively evaluate
        the effectiveness of the FTP has been volatility reduction. But as discussed in section
        3.2.3.3 Performance Measurement, volatility reduction metrics, as currently
        constructed, are incomplete measures of performance. They show that fuel cost
        volatility reduction is being achieved for the current portfolio (but not on an historical
        basis), but without a corresponding measurement of the cost of achieving the reduced
        volatility. And without a quantitative measure of TVA’s (or the rate payers’) risk
        tolerance, and without the ability to evaluate the degree of volatility reduction relative



Mercatus Energy Advisors                         35                          Proprietary & Confidential
        to the costs incurred to achieve it, it is difficult to render a useful quantitative evaluation
        of the effectiveness of the FTP.

        Further, a performance metric called Fuel Rate Volatility (“FRV”) has recently been
        introduced. Like the FCC and the FRC discussed above in Section 3.2.3.3 Performance
        Measurement, this metric shows the fuel rate volatility of the hedged and unhedged
        portfolios. However, the FRV metric is a look-back measurement of historical
        performance, whereas the FCC and the FRC are look-forward metrics based on the
        current hedge portfolio.

        In the report as of the 4th quarter of 2012 (see Appendix B TVA Financial Hedging
        Program Indicators), the FRV shows that the reduction in the fuel rate volatility over the
        almost six year history of the FTP is zero, yet the report grades the FTP as “Effective.”

        It is an overstatement to quantitatively judge the FTP as “effective” given that TVA has
        expended substantial costs – costs that have never been properly calculated to date -
        and given that the FTP has exposed TVA to substantial liquidity risk, operational risk, and
        potential reputation risk, while not achieving its stated policy objective of reducing fuel
        rate volatility.

        One aspect of the failure is explained in a footnote to the report: “In FY09 volatility is
        increased by hedging activities rather than decreased due to over-hedging as a result of
        higher than planned hydro generation. Excluding this period, the overall volatility would
        have been reduced 4% by hedging activities.” It is important to note that the reported
        cause of the failure to achieve volatility reduction, uncertainty around hydro generation,
        which contributed to volatility not being reduced despite substantial hedging, reinforces
        the findings and conclusions of this review as discussed above in Section 3.13.1
        Qualitative Evaluation. The failure has to do with the mismatch of the FTP’s hedging
        strategies and the substantial volumetric uncertainty of TVA’s physical exposure to
        natural gas price risk.

        However, taking into account the 2009 hydro-related issue, 4% volatility reduction is not
        an effective result given the substantial natural gas hedge quantities of the FTP.
        Examining the hedge ladder illustrated in Appendix A of the Financial Hedge – Strategy
        Sheet, the “Disciplined Hedging” hedge target minimums equal approximately 30%
        hedge coverage on average over a 60 month hedging horizon, and 50% across the first
        12 months. Ideally, because of hedging with fixed-price, fixed-quantity instruments
        which reduce price volatility by 100% for every volumetric unit hedged, a hedge
        program in steady-state operation with approximately 30% to 50% hedge coverage
        should achieve a commensurate 30% to 50% reduction of volatility, not 4%.


Mercatus Energy Advisors                          36                           Proprietary & Confidential
        However, taking into account the 2009 hydro-related issue, 4% volatility reduction is not
        an effective result given the substantial natural gas hedge quantities of the FTP.
        Because a volatility reduction metric is not available that measures the historical
        volatility reduction of natural gas hedging only, it is difficult to assess the exact
        contribution to fuel rate volatility reduction due to natural gas hedging. But it is
        surprising to find very little volatility reduction on an historical basis given the
        substantial quantity of natural gas that has been hedged as evidenced in Appendix A of
        the Financial Hedge – Strategy Sheet.


        3.13.3 Assessment of the Management Style of the FTP

        As noted in section 3.2.3 Best Practices at TVA, TVA’s trading and risk management
        organizational structure, including senior management risk committees, a Front Office, a
        Middle Office, and a Back Office, and an independent credit risk management function;
        a clearly stated objective for risk management, an articulated hedge strategy with
        clearly defined hedge targets; an appropriate risk information system of record; and
        clearly defined limits and controls meet industry standards.

        The management style of the FTP is similar to that of other power producers and
        consumer hedgers and generally conforms to industry standards. However, as noted in
        other sections of this report, one of the major deficiencies of the FTP is that the
        performance metrics being calculated at the behest of the OIG are occurring in the Front
        Office rather than the Back Office.

        As noted in 3.13.1, management intervention of the nature stated is of particular
        concern.

        While it is not uncommon for senior management to make emotional hedging and/or
        trading recommendations, especially in highly volatile market conditions such as the
        natural gas market from 2007-2009, such actions certainly violate industry best
        practices and often lead to undesirable results, as has been well documented in
        numerous cases such as the events which ultimately led to bankruptcies of SemGroup
        and MF Global, among others.

        The subsequent creation of the Portfolio Risk Oversight Committee (see Portfolio Risk
        Oversight Committee Charter, FSO-SPP-01.1) is a very positive development and should
        be utilized to the fullest extent allowed by the charter.




Mercatus Energy Advisors                       37                          Proprietary & Confidential
        3.14 Value at Risk Review


        3.14.1 The Misapplication of VaR at TVA

        To date, TVA has applied VaR as if it is measuring the potential loss on a derivative
        speculative portfolio. As noted in 3.2.1 Sources of Best Practices, VaR first hit the stage
        as a recommended best practice in the G30’s seminal report “Derivatives: Practices and
        Principles” published in 1993, and was originally intended as a new and more
        comprehensive metric to measure the risk of derivatives speculative portfolios.
        Although TVA does not speculate, it has been measuring the value at risk of a portfolio
        comprised of hedge positions only, which is the traditional application of VaR for a
        speculative book. Unless VaR is applied to a portfolio of only hedge positions as a type
        of “at risk” metric for calculating potential margin calls, this application of VaR provides
        no value to TVA.

        As noted in Section 3.2.3 Best Practices at TVA, TVA should reconfigure its VaR
        calculation to include the physical exposures being hedged. This would transform the
        metric into a fuel cost at risk metric, which would be much more useful for TVA.

        As noted elsewhere in this document, fuel cost stochastic modeling conducted by
        Systems Planning is similar to this recommended approach.


        3.14.2 Analysis of How VaR Drives Trading Activities

        As currently configured, VaR does not drive TVA’s trading activities. Interview responses
        for this project indicated that the limit placed on VaR (which is now up to $90 million for
        the FTP) was arbitrarily established by the former Chief Risk Officer. TVA’s VaR for the
        natural gas FTP fluctuates far below the $90 million VaR limit, and consequently VaR
        does not affect how the program is managed or controlled.


        3.14.3 Analysis of VaR Calculation Methodology

        Although an in-depth examination of TVA’s VaR calculation methodology was not part of
        this project, interview responses and an analysis of documents indicates that TVA’s VaR
        model was recently changed to a Monte Carlo simulation approach from the original
        variance/covariance analytical approach. A Monte Carlo simulation model allows for
        capturing the effects of non-linear portfolio exposures (i.e., options) and in theory will
        report a more accurate VaR for a portfolio with substantial non-linear exposures.
        Further, a Monte Carlo simulation model allows for the introduction of volumetric

Mercatus Energy Advisors                         38                           Proprietary & Confidential
        variability, and given the huge variability in TVA’s portfolio due to the potential coal
        versus natural gas displacement for its generation fleet, the ability to incorporate
        volumetric uncertainty in “at risk” metrics would be very important.


        3.14.4 Analysis of How Options and Volumetric Uncertainty are Treated in
        VaR Models

        Through interview responses and the review of documents, as noted in Section 3.14.3
        “Analysis of VaR Calculation Methodology” above, TVA recently improved its VaR model
        to a Monte Carlo simulation approach to take into account the influence of non-linear
        exposures (i.e., options). Although a Monte Carlo simulation allows for volumetric
        uncertainty, adjusting VaR for volumetric uncertainty is not a common practice in the
        energy industry and there was no indication it is in TVA’s future plans. Incorporating
        volumetric uncertainty in a Monte Carlo simulation VaR model would not be a trivial
        undertaking.


        3.14.5 Analysis of Data Sourcing and Processing

        Interviews indicate that TVA is meeting industry best practices with respect to data
        sourcing and processing via its utilization of the Commodity XL ETRM (energy trading
        and risk management) platform, an industry leading platform. In addition, the platform
        receives data feeds from industry standard vendors such as Platts. However, interviews
        also indicated that has yet to take full advantage of all of Commodity XL’s modules and
        functionality, which once fully utilized, would provide it with the ability to conduct
        comprehensive cross-commodity analysis as mentioned in other sections of this report.
        In addition, it would be ideal if TVA’s other relevant systems (i.e. GenMan) are
        integrated with Commodity XL so that all relevant commodity risk management data
        can be maintained and analyzed within one “master” system.


        3.14.6 Backtesting/Validation


        As noted in 3.14.1, while TVA does conduct VaR analysis, at present it is misapplied
        because it calculates the VaR of the hedge position only. As such it is inappropriate to
        address the accuracy of the VaR analysis. In addition, TVA has begun modeling fuel cost
        certainty and produces a metric that is similar to the VaR of a hedged portfolio (inclusive
        of hedges and the exposures being hedged). While the development of such a metric is
        certainly a positive development, analysis of this metric with respect to backtesting
        and/or validation is beyond the scope of this review. For more on this subject see
        section 3.2.3.1 Risk Tolerance.

Mercatus Energy Advisors                         39                           Proprietary & Confidential
        3.15 Additional Risk Metrics

        A quasi risk metric, used as the primary basis for controlling trading activities, is
        measurement and adherence to hedge targets.


        3.16 Additional Commodities

        As has been addressed in several other sections of this report, for TVA to have the
        ability to better analyze and understand the risk associated with the FTP, the FTP should
        not only be analyzed in isolation but also as part of a cross-commodity portfolio which
        incorporation additional commodities such as coal and fuel oil. Furthermore, said
        analysis should include not only TVA’s financial positions but physical positions as well
        as physical and financial positions can and often do offset one another.


        3.17 TVA Management’s Actions & Response to the OIG’s
        Recommendations

        An additional part of the scope for this project was to review and assess TVA
        management’s actions and response to the recommendations included in the OIG’s
        review of the FTP, entitled “Audit 2011 -14477 – REVIEW OF TVA’S FINANCIAL TRADING
        PROGRAM”, dated September 28, 2012. The recommendations covered four broad
        areas, including:

            1)   A comprehensive cost/benefit analysis of the FTP.
            2)   Calculating performance metrics.
            3)   Monthly VaR backtesting.
            4)   Improve communication of the FTP performance with customers.
        The scope for this project included a particular focus on the cost/benefit analysis and on
        performance metrics, although the other two points listed above will be addressed
        briefly.
        For this project, management’s responses have been assessed through interview
        findings and by reviewing management’s response document entitled “OIG FINANCIAL
        TRADING PROGRAM AUDIT – COMPLETED RECOMMENDATIONS rev. 1.”


        3.17.1 Operational Risk, Reputational Risk, Cost/Benefit Analysis

        TVA management provided a point by point response to the OIG’s recommendations
        (see OIG Financial Trading Program Audit – Completed Recommendations rev. 1). In

Mercatus Energy Advisors                          40                           Proprietary & Confidential
        addition to the cost/benefit analysis recommended by the OIG, TVA management
        committed to performing a qualitative assessment of operational risk and reputational
        risk, an assessment of counterparty risk, and an assessment of collateral/margin posting
        risk. These assessments were to be performed separately from the cost/benefit
        analysis.
        In reviewing TVA management’s response document, it does not appear that
        management responded with an assessment of operational risk or of reputational risk.
        In their response document, they restated the OIG’s recommendations and then add
        the following response: “Perform a qualitative assessment of operational risks with
        respect to existing control processes. Conduct a qualitative review of potential
        reputational risk. These evaluations will be made separately from the natural gas price
        risk C/B analysis.”): ‘Action: See attached report to be distributed annually to quantify
        the costs and benefits associated with the Financial Hedging Program.’” No mention
        was made in TVA management’s response document of addressing the operational risk
        assessment, nor the reputational risk assessment.
        Reviewing the assessments of counterparty risk and of collateral/margin posting risk
        was not part of the scope of this project. However, a review of the cost/benefit analysis
        was included in the scope.
        The cost components included in the cost/benefit analysis are lacking. There are many
        more costs that should be considered beyond the software costs and,
        administrative/overhead costs which are included in TVA management’s cost/benefit
        analysis. And the cost summaries that were included have no reference to the
        individual cost components that make up each cost category. Software costs are listed
        as a single line item, as well as administrative costs for the Front, Middle, and Back
        offices. No details of individual costs within these categories were included. The cost
        elements that should be included in a cost/benefit analysis are discussed in Section
        3.2.3.3 Performance Measurement.


        3.17.2 Performance Measurements

        As quoted in TVA management’s response document, the OIG’s second
        recommendation was to “Develop and implement performance metrics that specifically
        measure the objective of the FTP, which is FCA price volatility mitigation.” In response,
        TVA developed three performance metrics. Two of the metrics are look-forward
        measures of volatility reduction (the Fuel Rate Certainty and Fuel Cost Certainty
        metrics), and the other metric is an historical look-back metric to measure how much
        volatility reduction has been achieved (the Fuel Rate Volatility metric). All three are
        good initial attempts to develop performance metrics, but each should be improved.
        The look-back indicator appears to meet industry standards for such metrics although

Mercatus Energy Advisors                        41                          Proprietary & Confidential
        the report for the indicator fails to disclose sufficient details about the calculation, and
        fails to present sufficient quantitative detail. The two look-forward metrics appear to
        meet the objective of measuring potential volatility reduction, but need to go further to
        incorporate the volumetric uncertainty that has plagued the FTP to date and to calculate
        the effective cost of the volatility reduction. This is discussed in more detail in Section
        3.2.3.3 Performance Measurement.


        3.17.3 VaR Analysis

        While TVA does conduct VaR analysis, at present it is misapplied because it calculates
        the VaR of the hedge position only, as if it were a speculative derivatives portfolio, and
        the current limit on VaR is so far above TVA’s actual day to day VaR exposure as to have
        no bearing on day to day management or outcomes of the program. However, TVA has
        begun modeling fuel cost certainty and produces a metric that is similar to the VaR of a
        hedged portfolio (inclusive of hedges and the exposures being hedged). This is a
        beneficial development and can be used in risk tolerance determination.


        3.17.4 Improve Communication of the FTP with Customers

        Interview responses for this project indicate that initiatives are underway to improve
        communications with ratepayers about the FTP. Preferably, this would include
        gathering information from the ratepayers that could be used in a more formal risk
        tolerance process that would in turn better define the hedging mission and hedge
        quantities for the FTP. The issue of risk tolerance has been addressed in several
        subsections of Section 3.1 High Level Overview of the FTP and Overall Objectives,
        Section 3.2.3.1 Risk Tolerance, and in Conclusions.


        4.0 Conclusions

        Although the scope of this project involved an overall review of TVA’s FTP, the OIG was
        particularly interested in the issues of a cost/benefit analysis of the FTP, including an
        appropriate calculation of program costs and an accurate assessment of program
        benefits.

        TVA’s initial attempt to calculate a cost/benefit analysis is lacking. Many more costs
        should be included in the cost/benefit calculation. There are two types of costs that
        should be calculated, and they should be evaluated separately and together. The first is
        any cost that has been incurred resulting from operating the FTP. In other words, it
        should include all costs that would not be incurred if TVA was not operating a financial

Mercatus Energy Advisors                         42                          Proprietary & Confidential
        hedging program. The second type is to calculate the effective cost of natural gas
        inclusive of hedge results. TVA is calculating this cost but it is not being compared to the
        benefits of the program.

        TVA has made a good initial effort in calculating the performance and benefits of the
        FTP, including the look-forward metrics of the FCC and the FRC, and FRV, a look-back
        metric. The effective cost of natural gas versus the market cost can be implied by TVA’s
        calculation of the FCC and the FRC. This cost differential should be explicitly reported
        and compared to the amount of fuel cost certainty being achieved. Performance
        metrics should be improved through greater explanations of the metrics, and by
        measuring the performance of discrete components of the FTP (e.g., gas hedging, coal
        hedging, purchased power).

        A related topic to the measurement of benefits is an assessment of the effectiveness of
        the FTP. From a simplistic perspective, that of adhering to the simple objectives of
        TVA’s commodity risk management policy, the FTP can be considered effective. The
        sole means of measurement from this perspective is adherence to the hedge ladder.

        But considered in a broader sense, the benefits and effectiveness of the FTP have been
        questionable. The historical perspective of the FRV performance metric shows that
        through the program’s history it has not achieved any reduction in fuel cost uncertainty
        (volatility) – see the FRV report in Appendix B TVA Financial Hedging Program Indicators.
        Even on an individual year by year comparison, the FRV metric shows that fuel rate
        volatility reduction has been modest at best, and is very low relative to the amount of
        hedge coverage of the program.

        With regard to risk tolerance, the size of the program (i.e., the amount of hedge
        coverage and the hedging horizon) was selected based on benchmark data and data
        from peer comparisons, not through a determination of TVA’s risk tolerance or the rate
        payers’ risk tolerance. Determining rate payer risk tolerance is not a trivial or easy task
        to accomplish. However, the authors of this report have been involved in projects for
        regulated and self-regulated utilities where risk tolerance has been quantified by
        sampling senior management or through conducting surveys of rate payers.

        From a best practice perspective, several aspects of the FTP are lacking. The only
        reference to risk tolerance in the policy, or in the operation of the program, focuses on
        adherence to the volumetric limits of the hedge ladder. TVA has been sensitive to the
        magnitude of past margin requirements for maintaining exchange-traded hedge
        positions, yet apparently it did not conduct an analysis to determine its liquidity risk
        tolerance threshold prior to or during the operation of the program. Individual
        counterparty credit limits are mentioned in the credit risk management policy, but the

Mercatus Energy Advisors                         43                          Proprietary & Confidential
        actual limits do not appear in any program-related documents, and the spreadsheet that
        reports credit exposures does not have any limits listed. It is a best practice to quantify
        risk tolerance through at least one measure of financial performance, and at present
        TVA is not doing so. And the best way to “size” a hedging program is to determine how
        much hedge coverage is necessary to reduce risk to below that of the risk tolerance
        program. This is not how TVA determined the size of the FTP.

        As previously discussed, while TVA does conduct VaR analysis, at present it is misapplied
        because it calculates the VaR of the hedge position only. In addition, the current VaR
        limit on VaR exceeds actual day to day VaR exposure but such a magnitude that it has no
        impact on the FTP. However, TVA has begun modeling fuel cost certainty, which
        includes hedges and the exposures being hedged, and is a very meaningful metric with
        respect to TVA’s risk tolerance and analysis.

        Despite multiple references to stress testing in the policy document and the procedures
        document, stress testing is not being conducted. This could also be used to test and
        inform risk tolerance discovery and determination. As noted above, there appears to be
        some confusion regarding the language in the policy and procedures documents on this
        point. TVA indicates that governance documents have been revised to reflect current
        practices. In addition, it should be noted that stress testing could also be used to test
        and inform risk tolerance discovery and determination.

        Hedge effectiveness could be improved by modifying the hedge strategy and the choice
        of hedging instruments. At present there is a material mismatch between hedge
        instruments and TVA’s price risk exposure to physical natural gas requirements. TVA
        has substantial volumetric uncertainty in its fuel burns and this translates into
        substantial uncertainty in the FTP’s hedge targets. However, these exposures are being
        hedged with volumetrically certain instruments. The mismatch leads to a churning of
        the hedge portfolio which increases costs, and undermines volatility reduction and
        hedge effectiveness.

        It is important to note that the new performance metrics being calculated at the behest
        of the OIG are being prepared by the Front Office. This violates best practice separation
        of duties. Although most Front Offices prefer to keep track of their performance, official
        performance metrics and reports should be the responsibility of the Middle Office.




Mercatus Energy Advisors                        44                          Proprietary & Confidential
        Appendix A.


Natural Gas Cost Components. Source: FY13 Fuel and Purchased Power Contracting Plan




Mercatus Energy Advisors                    45                       Proprietary & Confidential
        Appendix B.


TVA Financial Hedging Program Indicators




Mercatus Energy Advisors                   46   Proprietary & Confidential
        Appendix B. (continued)


TVA Financial Hedging Program Indicators




Mercatus Energy Advisors                   47   Proprietary & Confidential
        Appendix C.


Figure 1: Gas Price Sensitivity. Source: TVA’s FY13 Fuel and Purchased Power Contracting Plan




Figure 2: TVA Monthly Gas Consumption.




Mercatus Energy Advisors                          48                            Proprietary & Confidential
        Appendix C. (continued)


Figure 3: Gas Hedge Reduction Bcf Based on Coal “Natural Hedge.” Source: July 31, 2012
Natural Gas Hedge Ladders Price Strategy Presentation.




Figure 4: Dividing Hedge Targets into Two Tranches. Source: Mercatus Energy Advisors.




      Figure 4 is only an example; it is not intended to illustrate a specific strategy which should be employed by TVA.




Mercatus Energy Advisors                                     49                                   Proprietary & Confidential
        Appendix D.
                                        Michael R. Corley

Michael Corley is the founder and president of Mercatus Energy Advisors, a Houston based
energy trading and risk management advisory firm. In this role Mr. Corley leads the day to day
operations of the firm as well as client engagements.

As of late, the client engagements Mr. Corley has lead have focused on the review and
assessment of energy risk management programs; development of hedging and risk
management policies; origination, implementation and management of energy hedging and risk
management strategies; energy trading and risk system selection and structuring illiquid
transactions. These engagements have involved clients in numerous industries including
airlines, cruise lines, energy marketers, energy utilities, manufacturers and oil & gas producers,
among others.

Prior to founding Mercatus Energy Advisors and its predecessor, EnRisk Partners, Mr. Corley led
the natural gas liquids and refined products trading and risk management group at Asset Risk
Management. Previously, Mr. Corley was an account executive with Hedge Solutions during
which time he provided energy risk management consulting solutions and marketed energy
derivatives to clients in various industries.

Prior to transitioning to energy trading and risk management consulting, Mr. Corley was an
independent energy trader, during which time he traded crude oil and natural gas futures and
options. Earlier in his career, Mr. Corley was a natural gas derivatives broker with TradeSpark,
the former energy trading subsidiary of Cantor Fitzgerald. While with TradeSpark he also served
as a natural gas hedging consultant to Peoples Energy Resources.

Mr. Corley began his career at El Paso Merchant Energy where he held various positions in
trading, scheduling and quantitative analysis; covering crude oil, electricity, natural gas, natural
gas liquids and refined products. While at El Paso, Mr. Corley also served as a natural gas
trading consultant to Gasoductos de Chihuahua, a midstream joint venture between El Paso
Energy International and Pemex Gas y Petrochimica Basica. In addition, Mr. Corley was a
member of the team that developed and implemented El Paso’s proprietary trading and risk
management system.

Mr. Corley regularly leads educational seminars, training sessions and academic lectures on
various aspects of energy hedging, trading and risk management to a wide range of audiences
across the globe.

Mr. Corley earned a B.A. from The University of Oklahoma. He is also registered with the
Commodity Futures Trading Commission (CFTC) and the National Futures Association (NFA) as a
principal of a Commodity Trading Advisor (CTA).



Mercatus Energy Advisors                        50                           Proprietary & Confidential
        Appendix D. (continued)

                                      Larry G. Lawrence

Mr. Lawrence is a senior consultant with Mercatus Energy Advisors. Mr. Lawrence has over 25
years of experience in trading, risk management and compliance. His experience includes
financial trading in energy, foreign exchange, fixed income and equity markets; consulting for
risk management, compliance, and trading issues; derivatives portfolio management; technical
and options analysis; and corporate education.

In recent years Mr. Lawrence has led numerous engagements with electricity generation
companies and energy trading and marketing companies regarding the review and assessment
of natural gas and electricity trading and risk management programs; development of
compliance and risk management policies; and energy trading and risk system selection and
implementation.

Mr. Lawrence has extensive experience in compliance, trading, and risk management
implementation. His experience includes the review and assessment of risk management
programs; compliance reviews, program design and implementation; the development of
trading and risk management policies, procedures, and control structures; credit risk
management; hedge strategy modeling, development, and optimization; value at risk
assessment and implementation; performance measurement; trading and risk system selection
and implementation; transaction structuring; tactical trading assistance; real option valuation
and modeling; and the development of forward price curves and term structures of volatility.

Mr. Lawrence lectures extensively in North America, Europe, Asia, and Africa on trading, risk
management and compliance issues to audiences including senior executives, government
representatives, front, middle, and back office personnel, and compliance personal from
financial institutions, sovereign energy entities, multinational energy companies, government
agencies, and a variety of regulated entities.

Prior to founding Enterprise Risk Consulting, Mr. Lawrence was a principal of Teknecon Energy
Risk Advisors, an energy trading and risk management consulting firm. Previously, Mr.
Lawrence was an energy trading consultant and corporate trainer with Saladin, an energy
trading and risk management software provider. Earlier in his career, Mr. Lawrence was the
president of Eastbrook Futures, an institutional futures brokerage firm. Prior to joining
Eastbrook Futures, Mr. Lawrence held various roles in brokerage, trading and technical analysis
with Merrill Lynch, Elders Futures and GPR. Mr. Lawrence began his career with at Murfield
Commodities where he was an institutional futures and options broker.

Mr. Lawrence earned a B.S. from The University of Texas at Austin. He is also registered with
the Commodity Futures Trading Commission (CFTC) and the National Futures Association (NFA)
as a principal of a Commodity Trading Advisor (CTA).


Mercatus Energy Advisors                      51                         Proprietary & Confidential
                             ATTACHMENT A
                                Page 1 of 17




TVA RESTRICTED INFORMATION
                                 ATTACHMENT A
                                    Page 2 of 17




.




    TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 3 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 4 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 5 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 6 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 7 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 8 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                                Page 9 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 10 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 11 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 12 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 13 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 14 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 15 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 16 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT A
                               Page 17 of 17




TVA RESTRICTED INFORMATION
                             ATTACHMENT B
                                 Page 1 of 2




TVA RESTRICTED INFORMATION
                             ATTACHMENT B
                                 Page 2 of 2




TVA RESTRICTED INFORMATION
